<html>
<title> - REVIEWING ATF'S FAILURES IN THE DEATH OF ICE AGENT JAIME ZAPATA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



    REVIEWING ATF'S FAILURES IN THE DEATH OF ICE AGENT JAIME ZAPATA

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 9, 2017

                               __________

                           Serial No. 115-18

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-501 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e495e416e4d5b5d5a464b425e004d414300">[email&#160;protected]</a>                        
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                     Jason Chaffetz, Utah, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matthew Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     John Sarbanes, Maryland
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan

                   Jonathan Skladany, Staff Director
                    William McKenna, General Counsel
                    Tristan Leavitt, Senior Counsel
                      Cordell Hull, Senior Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 9, 2017....................................     1

                               WITNESSES

The Hon. Michael E. Horowitz, Inspector General, U.S. Department 
  of Justice
    Oral Statement...............................................     7
    Written Statement............................................     9
Mr. Thomas E. Brandon, Acting Director, Bureau of Alcohol, 
  Tobacco, Firearms and Explosives, U.S. Department of Justice
    Oral Statement...............................................    14
    Written Statement............................................    16
Mr. Ronald B. Turk, Associate Deputy Director and Chief Operating 
  Officer, Bureau of Alcohol, Tobacco, Firearms and Explosives, 
  U.S. Department of Justice
Mr. William A. Temple, Special Agent in Charge, Dallas Field 
  Division, Bureau of Alcohol, Tobacco, Firearms and Explosives, 
  U.S. Department of Justice
Mr. John Craft, Assistant United States Attorney, Office of the 
  U.S. Attorney for the Eastern District of Texas, U.S. 
  Department of Justice

                                APPENDIX

February 22, 2017, New York Times ``A.T.F Filled Secret Bank 
  Account With Millions From Shadowy Cigarette Sales'' submitted 
  by Mr. Lynch...................................................    60
Hearing Follow-up Response submitted by Mr. Brandon, Acting 
  Director, Bureau of Alcohol, Tobacco, Firearms and Explosives..    67

 
    REVIEWING ATF'S FAILURES IN THE DEATH OF ICE AGENT JAIME ZAPATA

                              ----------                              


                        Thursday, March 9, 2017

                   House of Representatives
               Committee on Oversight and Government Reform
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:03 a.m., in Room 
2154, Rayburn Office Building, Hon. Jason Chaffetz [chairman of 
the committee] presiding.
    Present: Representatives Chaffetz, Duncan, Jordan, Gosar, 
Farenthold, Walker, Blum, Hice, Russell, Grothman, Hurd, 
Palmer, Mitchell, Cummings, Maloney, Norton, Lynch, Connolly, 
Kelly, Watson Coleman, Plaskett, Krishnamoorthi, and 
DeSaulnier.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order, and without objection the 
chair is authorized to declare a recess at any time.
    We are here today to talk about ATF's failures in the death 
of an ICE agent, Jaime Zapata. Well, there is nothing more 
difficult than dealing with a person who puts their life on the 
line for the United States of America and they get killed doing 
it. They lose their life. The Zapata family deserves some 
answers, a wonderful family.
    Jaime was one of, I think, 5 children, 5 kids. All those 
brothers serve in law enforcement in various capacities, and I 
do not know that the Zapata family is here. I hope they are 
able to watch on television. I think that they are. But it 
breaks your heart when you have somebody that young who is 
serving their Nation and their life is taken. And it was 
violent, and it was, many people believe, preventable.
    But it is also the responsibility, I believe, of the United 
States and the Congress to understand what happened so that we 
can try to help prevent it and make sure it never happens 
again. It is also, I think, imperative, it certainly is in my 
heart, to give answers to the family so they can understand 
what happened, and what went well and what did not go well.
    And as you will hear me say time and time again in this 
committee, we are different in the United States. We are self-
critical. We do take a good, hard look at ourselves and ask 
difficult questions. And it is one of the things that 
differentiates the United States of America from just about 
every other country on the planet, that you can speak truth to 
power. You can bring people in. You can grill them and talk to 
them, and ask hard questions, and get those answers, and we are 
self-critical. It is not just here to protect the politically 
elite or the higher ups in government.
    So, what happened on February 15th of 2011, more than 6 
years ago now, cartel members in Mexico murdered an Immigration 
and Customs Enforcement agent, Jaime Zapata, when he was 
driving there on ICE business. One of the firearms recovered 
from the attack was traced back to an October 2010 purchase by 
Otilio Osorio at a Dallas/Fort Worth gun show. The evidence 
uncovered by the Department of Justice inspector general shows 
that the Bureau of Alcohol, Tobacco, and Firearms, the ATF, 
failed to investigate Osorio, his brother, Ranferi Osorio, and 
their associates who were all part of a straw purchasing ring.
    Straw purchasing. It is illegal in the United States of 
America to buy a gun for someone else, and you certainly cannot 
do that for others en masse. It is against the law. Evidently, 
the ATF potentially missed chances to prevent the firearms in 
question from trafficking to Mexico.
    The ATF knew in June of 2010 that the Osorios were 
associated with an organization that was likely trafficking 
firearms to Mexico. In fact, the inspector general found that 
by late September 2010, the ATF should have been investigating 
the Osorio brothers and their associates. As the IG summarized, 
and I quote, ``These were dangerous individuals involved in 
serious and significant ongoing criminal activities that 
represented a substantial risk to public safety in the United 
States and Mexico.''
    The inspector general also found a scenario where ATF had 
both a legal authority and the opportunity to take firearms in 
the Osorios' possession, but failed to seize them. Those 
firearms were also later found at a crime scene.
    Unlike the Fast and Furious case, which this committee has 
been vigorously pursuing, where refraining from contacting 
straw purchases was part of the flawed strategy, the inspector 
general found the Dallas Field Division simply failed to do its 
job. We will never know whether Agent Zapata would still be 
alive if the ATF had done its job properly, and we rely heavily 
on the inspector general and their expertise in looking at 
this.
    And, again, our hearts, and minds, and prayers go to the 
Zapata family.
    In September of 2012, nearly 5 years ago, the committee and 
Senator Chuck Grassley requested an investigation of ATF's 
actions relating to Agent Zapata's death. We presented evidence 
to the IG obtained from confidential sources as well as 
whistleblowers. We told the inspector general that ATF may have 
had probable cause to arrest the Osorio brothers in November of 
2010 when ATF witnessed them providing 40 weapons with 
obliterated serial numbers to an undercover ATF informant at a 
Walmart parking lot for the purpose of trafficking those 
weapons to Mexico. The Department of Justice inspector general 
report confirms these facts.
    ATF's first contact with the Osorios and Morrison, however, 
did not occur until 3 months after Agent Zapata's murder. So, 
again, information was there, but it was 3 months after Agent 
Zapata was murdered that the ATF first made contact.
    It has been more than 6 years since Agent Zapata was 
murdered in the ambush attack involving U.S. purchased and 
subsequently trafficked firearms. It has been nearly 5 years 
since the probe was requested.
    Today we want to examine ATF's past practices with respect 
to investigating straw purchases and firearms trafficking 
cases. We have had the ATF here on a couple different occasions 
dealing with these issues, and yet we are concerned that these 
problems are still happening.
    ATF must enforce the existing laws and aggressively stop 
illegally purchased and possessed firearms. Repeated excuses 
that the U.S. Attorney's Office will not prosecute or that 
heightened probable cause is necessary I think should be 
rejected, you know. I think we do have a further problem with 
prosecutors prosecuting gun crimes. In fact, this committee is 
anticipating having hearings on that very subject.
    It is frustrating not only at the ATF level, but it is 
frustrating with the TSA. I mean, every day we are taking guns 
off airplanes, and yet go try to find a case that is 
prosecuted. It is rare to none. There seems to be virtually no 
consequence. And today we aim to bring renewed focus on the 
incident for not only the Zapata family, but also those other 
families who serve in our Nation and the overall general well-
being of the United States of America.
    We invited ATF Deputy Director Ronald Turk and Special 
Agent in Charge William Temple to testify today because they 
could provide some of the answers the Zapata family and the 
public deserve. The Justice Department does not think we need 
to hear from them.
    You will notice that there are five seats there, but only 
two have bothered to show up. You know, when Congress, 
certainly an oversight committee, invites you to testify, it is 
not optional. It is not an exercise of whether or not it is 
convenient. They will show up, and we will get to that in a 
moment.
    Mr. Temple is the head of the Dallas Field Office, the 
special agent in charge, and he can provide a unique 
perspective in the field, one of the most challenging 
environments for fighting firearms trafficking. And in light of 
the serious problems that we covered in this IG report, we have 
to hear from the ATF officials outside of Washington. I am 
tired of hearing from just management. I want to hear from the 
people that actually are on the frontlines doing this. As you 
noticed, Mr. Temple is not here either. The Department of 
Justice continues to insist we should not talk to Mr. Turk or 
Mr. Temple, and I am going to get back to that later as we go 
through the questioning.
    We want to encourage ATF and other law enforcement agencies 
to place more emphasis on taking down criminals and their tools 
before they work their will. No law passed by Congress can 
require Federal law enforcement officers to simply do their 
job. It is tough. It is difficult. I have been on a lot of 
ride-alongs. I blow in and out in a few hours, and they do they 
do this day in and day out.
    They need to know that we got their back, we got their 
support, we love them, we care for them. And if there are 
problems and challenges that are happening at the front line, 
we need to know it. We cannot get that perspective if when we 
ask them to be here, some management person says, no, they 
really do not need to be here, I speak for the Agency, I speak 
for the mass. That is not the way this is going to work. It is 
certainly not going to work in this Congress. It does not work 
for me.
    So, I thank the two that are here, but, Mr. Brandon, you 
got some questions to answer about why people that work for you 
are not here. And we will get to that in the questioning.
    And as for Mr. Craft, you know, when you work as an AUSA, 
an assistant U.S. attorney, again, we are going to have to have 
some hard discussions with the Department of Justice because 
they are not above oversight either, and they will be here in 
the future as well.
    I have gone well past my time. Let me now recognize Ms. 
Maloney of New York for her opening statement.
    Ms. Maloney. I want to thank the chairman for holding this 
hearing, and thank him for his sensitivity for the sacrifice of 
law enforcement and the pain of families. This is an important 
hearing.
    When Special Agent Jaime Zapata was shot and killed in 
Mexico in February of 2011, he was only 32 years old. He was as 
enthusiastic and hardworking as any law enforcement agent can 
be. 6 years ago, this remarkable young man was murdered in an 
ambush while working in service of his Nation. His partner, 
Special Agent Victor Avila, was gravely injured alongside him. 
Examining the circumstances of Agent Zapata's death and the 
shooting of Agent Avila required a thorough and diligent 
investigation by the Office of Inspector General.
    I thank Mr. Horowitz and his staff for the report we are 
discussing today. This report identifies a number of serious 
problems in the way that ATF, the Drug Enforcement 
Administration, and the U.S. Attorney's Office investigated the 
trafficking of weapons to Mexico in 2010 and 2011.
    Many of these issues are not new to us on this committee. 
We have investigated them over and over again for several 
years, and we have worked to ensure that these agencies make 
serious and lasting improvements.
    The IG's report highlights some very important new facts. 
For example, it describes how a Federal prosecutor in Texas 
made a very serious mistake in agreeing to release a man by the 
name of Manuel Barba from Federal custody in July of 2010. 
According to the IG, that prosecutor had DEA reports with Mr. 
Barba claiming that he was heavily involved in drug 
trafficking.
    The IG found that this decision had terrible consequences, 
and I quote: ``Based on the information reasonably knowable to 
the agents and the prosecutors, it is clear that they should 
not have agreed to Barba's release from Federal custody and 
left at liberty to direct the straw purchase of one of the 
assault weapons and its trafficking to Mexico where it was used 
in the Zapata/Avila shooting.''
    This prosecutor's supervisor, the U.S. attorney for the 
Eastern District of Texas, admitted later, and I quote: ``We 
dropped the ball.'' Well, I have got to say that this Congress 
has dropped the ball in its support of law enforcement. We had 
testimony before this committee on Fast and Furious where the 
agent said give us a tough anti-drug trafficking law. And this 
committee, I authored along with Chairman Cummings a bill that 
just did that, made it a felony. They said we do not even 
bother to prosecute it because it is just a slap on the wrist, 
and give us the tools.
    I will say I am proud that it is the one bill addressing 
gun safety that has bipartisan support. I am reintroducing it 
again today with Republican support. It is the only gun safety 
bill that the NRA has not come out against because it makes so 
much sense, and practically every law enforcement agency in the 
country has endorsed this bill.
    And I would venture to say we have hearings about it, but 
it involves illegal trafficking of guns, and I hope that some 
members of this committee will join me and the chairman in 
having a hearing on the bill and actually doing something to 
keep these guns out of criminals' hands.
    Now, the IG's report also disproved an unfounded assertion 
made by Republicans on this committee at the time. They claimed 
that Agent Zapata and Avila may have been shot with the guns 
that were so-called walked as part of Operation Fast and 
Furious. These claims have turned out to be wrong. Let me be 
clear. This new information in no way diminishes our 
committee's obligation to ask tough questions and demand 
answers, but it does caution against members rushing to 
judgment without all the facts.
    With that in mind, today we will also discuss a recent New 
York Times article alleging that ATF failed to properly oversee 
so-called, and I quote, ``churning accounts'' between 2011 and 
2013 while investigating cigarette smuggling. In 2003, the 
Justice Department under Attorney General John Ashcroft argued 
in favor of allowing ATF to use churning accounts, asserting 
that Congress should give ATF authority to use money generated 
during undercover sting operations to offset their 
investigating expenses. In response, Congress granted this 
authority in 2004, and President Bush signed it into law.
    In 2013, the IG issued a report highlighting numerous 
accountability problems with these churning accounts between 
2006 and 2011. In response, ATF says that it stopped using 
these accounts. The New York Times article alleges that this 
latest operation was, and I quote, ``not authorized under 
Justice Department rules and went beyond what was identified in 
that audit released in 2013.''
    We do not have the full story yet. The chairman asked ATF 
to submit documents, but the due date is not until tomorrow. In 
addition, litigation referenced in the press report is under 
seal. Documents on the public docket are heavily redacted, and 
it is unclear whether ATF has submitted documents in that case.
    Nevertheless, if the allegations in this press report are 
true, they raise serious, serious questions. Who authorized 
this program? How was the money used? Did this activity violate 
Department guidelines? Has there been an audit of these 
accounts to determine whether funds were used improperly? Has 
anyone been disciplined? And how were the activities described 
in this report any different than straight out tobacco 
smuggling?
    We will not rush to judgment, but we will seek answers. We 
will review the documents. We will monitor the litigation to 
determine whether the case is unsealed, and we will question 
today's witnesses.
    Also, Congress has a role. More than 5 years ago, several 
ATF whistleblowers testified at that very witness table about 
abuses that they saw firsthand. They called for legislation to 
make gun trafficking a serious Federal crime. They explained 
that the current penalties for gun trafficking are not more 
than paperwork violations, and they called them, and I quote, 
``toothless.''
    In response, I authored legislation in the past 2 
Congresses. Our legislation was bipartisan. It had more than 
100 co-sponsors from both political parties. It targeted 
criminals and, most importantly, helped law enforcement do 
their job. They asked for this. They endorsed it. It was 
endorsed by local, Federal, State police groups as well as 
prosecutor organizations with members across this country. Yet 
our bill received absolutely no action in this House.
    I will reintroduce it today, and I hope the chairman will 
grant the request of the ranking member for a hearing so that 
we can look at solving the problem of gun trafficking that is 
often with drug cartels, and gangs, and criminals. And I think 
it is a very important piece of legislation. It can save lives 
and prevent guns from getting into the hands of criminals that 
kill good agents, such as Jaime Zapata.
    My time has expired. I thank the chairman for calling this 
important hearing, and I hope you will grant our request for a 
hearing on the bill.
    Chairman Chaffetz. The gentlewoman yields back. I thank the 
gentlewoman.
    We will hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    Chairman Chaffetz. We will now recognize our panel of 
witnesses.
    We are pleased to welcome the Honorable Michael Horowitz, 
inspector general of the United States Department of Justice. 
We thank you and all the people that work with you for your 
service. One of the things we would like you to address, 
though, is why in the world it took so long to get to this 
point. It seems excessively long, but, again, you have a very 
storied and rich career in serving our country, and we thank 
you for that.
    Mr. Thomas Brandon is the acting director of the Bureau of 
Alcohol, Tobacco, and Firearms, and Explosives. Again, we thank 
you for your service both in the military, the United States 
Marines, but also at ATF and working on behalf of the United 
States of America. And a very difficult, but very important 
job, and we thank you again for your service and for your being 
here today.
    As you know, pursuant to committee rules, all witnesses are 
to be sworn before they testify. So, if you will please rise 
and raise your right hand.
    Do you solemnly swear or affirm that the testy you will 
give will be the truth, the whole truth, and nothing but the 
truth, so help you God?
    [Chorus of ayes.]
    Chairman Chaffetz. Thank you. Let the record reflect that 
both witnesses answered in the affirmative.
    We will give you some latitude, but we would appreciate it 
if you would limit your oral testimony to roughly 5 minutes. 
Again, we will give you great latitude here, but your entire 
written statement and any supporting documents will be made 
part of the record.
    Mr. Horowitz, you are now recognized for 5 minutes.

                       WITNESS STATEMENTS

           STATEMENT OF HONORABLE MICHAEL E. HOROWITZ

    Mr. Horowitz. Thank you, Mr. Chairman. Mr. Chairman, 
Ranking Member Cummings, members of the committee, thank you 
for inviting me to testify today at this important hearing.
    On February 15th, 2011, ICE Special Agents Victor Avila and 
Jaime Zapata were attacked by members of a drug cartel while 
working in Mexico. Tragically, Agent Zapata did not survive the 
attack, while Agent Avila was seriously injured.
    Two firearms used in that attack were traced to purchases 
in Texas made by Otilio Osorio and Robert Riendfliesh, both of 
whom were connected to then ongoing DOJ criminal 
investigations. Our review examined the information that the 
ATF, DEA, FBI, and the Department of Justice obtained about the 
illegal narcotics and gun trafficking activities of Osorio, 
Riendfliesh, and their associates prior to the attack on Agents 
Zapata and Avila.
    Our review of ATF's investigation of Osorio, his brother, 
Ranferi Osorio, and neighbor, Kelvin Morrison, found numerous 
problems with the timeliness of ATF's response to mounting 
evidence that the individuals were committing firearms 
trafficking offenses.
    We found that ATF had collected sufficient information 
prior to Osorio's purchase on October 10, 2010 of the firearm 
that was later used in the attack on Agents Zapata and Avila to 
justify questioning his brother and Morrison, or taking other 
investigative steps regarding their firearms purchases. Our 
review also found that approximately 1 month after Osorio's 
firearm purchase, the Osorio brothers were recorded 
transferring 40 firearms, 37 with obliterated serial numbers. 
Despite this information, ATF's first contact with the Osorios 
and Morrison did not occur until late February 2011 following 
the attack on the agents.
    In addition, our review identified one instance, which 
occurred after the attacks on Agents Avila and Zapata, where we 
believe ATF had both the legal authority and opportunity to 
seize firearms in the Osorios' possession, but did not. Two of 
the firearms that could have been seized were later recovered 
at a crime scene in Mexico.
    We concluded that the ATF supervisor in the Dallas Field 
Division was not sufficiently proactive and failed to ensure 
that all of ATF's leads were investigated. The consultations 
with prosecutors were started, and that there was adequate 
coordination within ATF and with the DEA. We further determined 
that ATF delayed its investigation and arrests of the Osorios 
and Morrison for reasons that lacked sufficient justification.
    We also identified serious deficiencies with DEA's handling 
of its narcotics investigation of Manuel Barba, the person who 
trafficked the firearm purchased by Riendfliesh. The DEA 
uncovered information about Barba's potential gun trafficking 
in May 2010, yet never shared it with ATF. As a result, ATF 
only learned of Barba's gun trafficking as a result of its own 
investigation in August 2010, after the sale of the Riendfliesh 
firearm.
    We further determined that the AUSA handling the DEA 
narcotics prosecution of Barba should not have agreed to 
Barba's release from jail in July 2010 following his arrest. 
That decision left Barba at liberty to lead a group of firearms 
traffickers and direct the straw purchase and trafficking of 
the Riendfliesh firearm to Mexico.
    We were not persuaded by DEA's explanations for not passing 
on evidence of Barba's firearms trafficking activities to ATF, 
and we determined that there is room for improvement in DEA's 
policy to clearly require such communication in appropriate 
circumstances. As part of our oversight work concerning ATF's 
Operation Fast and Furious, we previously encouraged DEA to 
develop policies that provide clear guidance to its agents 
about when to contact ATF, but to date, DEA has not implemented 
that recommendation.
    With respect to ATF's own investigation of Barba and 
Riendfliesh, we found that ATF agents in that investigation 
diligently pursued leads, took effective investigative steps, 
and appropriately consulted and coordinated their activities 
with prosecutors. We did not identify any failure to take 
action by the ATF agents that might reasonably have prevented 
the trafficking of the Riendfliesh firearm.
    We did not make formal recommendations in this report 
because we believe our recommendations in the Operation Fast 
and Furious review that we did and in our recent follow-up 
review on the Operation Fast and Furious recommendations were 
sufficient to address the deficiencies we found in this review.
    We look forward to working with this committee and the 
Department to address the concerns identified in all of our 
reviews with regard to gun trafficking. And I'd be pleased to 
answer any questions the committee may have.
    Thank you.
    [Prepared statement of Mr. Horowitz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you. Mr. Brandon, you are now 
recognized for 5 minutes.

                 STATEMENT OF THOMAS E. BRANDON

    Mr. Brandon. Chairman Chaffetz, Ranking Member Cummings, 
and members of the committee, thank you for the opportunity to 
appear before you today. I welcome the opportunity to discuss 
the Department of Justice Office of Inspector General reports 
titled, ``Review of Investigations of the Osorio and Barba 
Firearms Trafficking Rings,'' and ``ATF's Use of Income-
Generating Undercover Operations.''
    I appreciate the work of the OIG in these matters. We agree 
with all of the findings in both reports, and ATF has 
implemented all of the recommendations from the 2013 report. I 
will continue to work closely with inspector general to further 
improve ATF.
    Before addressing those matters, however, I want to express 
the deepfelt condolences of all the men and women of ATF, to 
the family, friends, and colleagues of Special Agents Jaime 
Zapata and Victor Avila for the loss and suffering they have 
endured. Any time a law enforcement officer is lost in the line 
of duty, it is a tragedy that affects everyone. And over my 
career, I have had friends and colleagues killed in the line of 
duty, and every morning I contemplate the sacrifice that law 
enforcement officers have made on my behalf and on behalf of 
all Americans. I make my decisions as ATF's acting director 
with this in mind.
    Mr. Chairman, you know that I am a career special agent. I 
am not a political appointee. I have worked the streets in 
Detroit, L.A., and Phoenix. I understand the impact a law 
enforcement career has on a family. So, when I say that every 
day ATF special agents, investigators, and professional staff 
work tirelessly to remove the most violent offenders from the 
streets to make our communities safer, I speak from the heart 
and the very essence of my being. I've been there myself. It's 
not a talking point for me. It has been my life, and I'm 
honored and proud to lead the men and women of ATF.
    Leadership requires from time to time that we turn inward 
and examine ourselves. The DOJ OIG has helped us do that. I 
have closely read the OIG report on the Osorio and Barba gun 
trafficking rings, and I thank the inspector general for the 
thorough assessments of the events involved in those 
investigations.
    In particular, the OIG pointed out where ATF could make 
improvements to communications and information dissemination. 
ATF could and should have done better. We make no excuses, and 
I accept full responsibility for the lapses in 2010 and 2011. 
These events occurred more than 7 years ago before substantial 
leadership changes were implemented at ATF. The ATF of 2017 is 
not the ATF of 2010.
    Let me tell you how ATF has changed since that time. Since 
my arrival as the ATF deputy director in the fall of 2011, I've 
brought a laser focus to enhancing communication, operational 
oversight, and accountability to ensure that our investigations 
are effective, focused, and efficiently executed. In 
particular, hard lessons have taught us that the level of 
complexity involved in firearms trafficking investigations 
demand constant organizational vigilance, management oversight, 
and that effective communication is essential to success in 
these high stakes cases.
    To meet these demands, ATF has implemented a broad range of 
organizational improvements during my tenure. These 
improvements include implementation of Frontline as ATF's 
intelligence-led risk-based business model; establishment of 
crime gun intelligence centers in every ATF field division; 
focused hiring of intelligence research specialists with an 
emphasis on those with military experience; establishment of a 
formal ATF internal communications plan; enhancement of ATF's 
Monitored Case Program; enhancement of mandatory leadership 
command and control training for first-line supervisors and 
management; and mandatory training for all agents on firearms 
trafficking techniques. I want to assure the committee for that 
as long as I'm privileged to lead ATF, we will continue to 
identify areas where we can further strengthen our operational 
effectiveness.
    I also understand the committee's interest in recent media 
reports regarding ATF tobacco investigation. That investigation 
is the subject of an ongoing Federal civil lawsuit, and the 
Court has sealed the case pending trial. The United States is a 
party to that litigation, and, therefore, the Court's order is 
binding on ATF and me. Consequently, my ability to respond to 
questions specific to that investigation is extremely limited 
at this time.
    What I can advise the committee is that the OIG conducted a 
full program audit of ATF's income-generating undercover 
activities beginning in 2011, and issued a comprehensive report 
in September 2013. That report, which evaluated the period of 
2006 to 2011, identified serious deficiencies in ATF's policies 
and controls over those investigations.
    Before the OIG issued the report, ATF had internally 
recognized the need for more robust policies, procedures, and 
oversight on income-generating undercover activity 
investigations, and had begun implementing enhancements in 
2011. In April 2013, ATF issued a comprehensive order governing 
tobacco investigations, including strict rules on the use of 
income-generating undercover activities.
    ATF is not currently using this technique, and has not done 
so since 2013, and will not do so in the future unless very 
specific and limited parameters are met. ATF has closed all of 
these bank accounts and deposited all remaining funds from 
those accounts in the U.S. Treasury General Fund. Beyond 
implementation and strict enforcement of the April 2013 order, 
as noted, ATF has implemented all of the OIG's 2013 
recommendations, and, as a result, by October 2015, the OIG has 
closed all of its recommendations.
    Mr. Chairman and members of the committee, I am proud to be 
here today representing the men and women of the ATF. They work 
diligently every day to keep our communities safer. Thank you 
for this opportunity, and I am pleased to take your questions.
    [Prepared statement of Mr. Brandon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you, and I will recognize myself 
for 5 minutes.
    Mr. Brandon, you have been the acting director a year and 
11 months now, correct?
    Mr. Brandon. Yes, sir.
    Chairman Chaffetz. Mr. Turk and Mr. Temple work for you?
    Mr. Brandon. They do.
    Chairman Chaffetz. Why are they not here?
    Mr. Brandon. When we received the request, the invitation 
to testify, Mr. Chairman, I met with my team, consulted with 
DOJ, and wanted to quickly respond by having someone here from 
ATF, and that person would be me.
    Chairman Chaffetz. But the invitation was to yourself, Mr. 
Turk, and Mr. Temple, and you unilaterally decided that Mr. 
Turk and Mr. Temple would not be here?
    Mr. Brandon. No, I did not.
    Chairman Chaffetz. Who decided that Mr. Turk and Mr. Temple 
were not going to be here?
    Mr. Brandon. Well, the decision is theirs voluntarily. To 
let you know, Mr. Chairman, I did not order them not be here, 
and no one that I know of from the Department ordered them not 
to be here.
    Chairman Chaffetz. So, they personally chose not to be 
here.
    Mr. Brandon. That is their free decision, but also I agreed 
with it. I am not going to duck anything here.
    Chairman Chaffetz. So, they just decided that coming before 
Congress was an optional activity and that they were not going 
to do it. I think I understand. Do you know what a subpoena is, 
Mr. Brandon?
    Mr. Brandon. Yes, I do.
    Chairman Chaffetz. What does a subpoena require you to do?
    Mr. Brandon. To appear before the Court or the legislative 
body in this case.
    Chairman Chaffetz. See this subpoena right here? I do not 
have to ask a judge. I do not get a vote here. We are now 
hereby subpoenaing, here is one for Mr. Turk. He is to testify 
before this committee in a deposition on March 21st. Is there 
any reason he cannot attend at that time?
    Mr. Brandon. I do not believe so.
    Chairman Chaffetz. He will be served this subpoena. Mr. 
Temple, he is going to present himself for a deposition, which 
is a much more difficult thing than appearing before Congress. 
These things go on for hours under oath. Any reason he cannot 
be here on March 22nd at 10:00 a.m.?
    Mr. Brandon. Not that I am aware of.
    Chairman Chaffetz. Okay. And you are the director, or you 
are the acting director, so you can help make sure that his 
schedule is free to be here at that time?
    Mr. Brandon. I will make sure of that.
    Chairman Chaffetz. I just issued a subpoena for Mr. Temple 
as well. He will present himself before this committee. These 
are not optional exercises.
    Now, Mr. Craft was given a little bit shorter notice. We 
are going to have to have that discussion with the Department 
of Justice. He was the minority witness that was requested by 
Mr. Cummings to be here. His non-presence is also totally and 
wholly unacceptable, and we will figure out how to best move 
forward on him.
    These are not optional exercises. You are wasting this 
committee's time by allowing Mr. Turk and Mr. Temple to think 
anything other than. When they are invited to come to Congress, 
they will come to Congress. And when I sent you a notice on 
Thursday of last week, for you to contact your Department, your 
Agency, your people, for them to contact our office last night 
in the 5:00 hour is totally and wholly unacceptable. There is 
no excuse for that, and we will not tolerate that.
    And if I need to issue a subpoena at the get-go, you tell 
me. We will do that every time because they should have been 
here today. And if you had given us the proper notice as was 
laid out in the letter, which says that you will contact the 
committee by March 6th, which you did not, then we would have 
issued a subpoena, and they would be here today, and we would 
have a more full and complete hearing. And everybody in this 
audience, and especially the Zapata family, could hear from 
these people.
    Do we understand each other?
    Mr. Brandon. Yes, Mr. Chairman, we do. And I apologize if 
there was a communication as late as yesterday. I was under the 
understanding that there was communication, and if there was a 
subpoena, obviously they would be here. But I hear you loud and 
clear.
    Mr. Cummings. Mr. Chairman, would you yield for a second?
    Chairman Chaffetz. Yes, I will yield.
    Mr. Cummings. Mr. Brandon, I think the thing that concerned 
me more is when you said you agreed with the decision of them 
not to come. You understand the significance of a subpoena, do 
you not, and a request that your agents be here. But you just 
sat there and said you agreed with their decision, so 
apparently there was some back and forth. And you being their 
boss, I am just trying to figure out, you know, what part you 
played in all of that because that bothers me.
    It also bothers me that, you know, the late getting back to 
us. I mean, I think we try to accommodate, but when we get 
something, a response the evening before, that is kind of 
rough. But tell me what part you played.
    Chairman Chaffetz. No, go ahead.
    Mr. Cummings. I just want to be clear on this.
    Mr. Brandon. Thank you, sir.
    Mr. Cummings. You are their boss now, right?
    Mr. Brandon. Yes, I am.
    Mr. Cummings. Okay.
    Mr. Brandon. We got the invitations, not subpoenas, and I 
was told that normally we would get more time to respond within 
the 14-day rule. We wanted to absolutely appear here and be 
prepared, and that in talking to the Department, which had a 
lot of things going on with hearings, that this was the proper 
way to handle ----
    Mr. Cummings. But you said you agreed. You said you agreed 
with the decision for them not to be here. See, that puts in a 
kind of awkward position. We got the boss who says, okay, guys, 
you do not have to show up, and that sends a hell of a message. 
That is a problem.
    Mr. Brandon. It was not meant to be anything disrespectful 
to this committee in trying to say, okay, who was going to 
representing the Agency.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Chaffetz. Jaime Zapata was killed about 6 years 
ago. This has been under investigation nearly 5 years. When did 
you get the report from the Department of Justice, the 
inspector general? How long ago did you get the initial draft 
of the report?
    Mr. Brandon. The members of my team received the report, 
and it was the back and forth with edits. And I received it, I 
believe, approximately a month ago to read it.
    Chairman Chaffetz. Mr. Horowitz, do you have a more 
specific time?
    Mr. Horowitz. I can get you a more specific time, but it 
would probably be about a month to 6 weeks ago. If I can check 
and just get a more refined ----
    Chairman Chaffetz. So, your excuse that you needed more 
time, that just is not flying, okay? You had to know that we 
were deeply interested in this. And if you get the report 4 to 
6 weeks ago, you are going back and forth with edits, my 
understanding is that members of the ATF actually got a draft 
in December. Mr. Horowitz?
    Mr. Horowitz. That is correct, Mr. Chairman. It was 
December.
    Chairman Chaffetz. So, you get it in December, and now your 
complaint is you did not have enough time to prepare for this 
hearing. And that is why in part we invited Mr. Temple here 
because my concern is 6 years after we had an American killed, 
an agent killed, that you all have not got the lesson. So, do 
not tell me that you need more time because if you cannot 
communicate to Congress that you get it and that you are 
implementing the changes, my guess is all those men and women, 
the thousands of people out in the field, they have not gotten 
the message either.
    And that is the concern. That is the concern. You all try 
to dress it up so that you come to Congress and put on the 
best-looking picture you can. We want the raw truth of what has 
happened and what those men and women are having to deal with 
on the front lines. So, the idea that you needed more time, we 
did not get the customary 2 weeks, is a load of crap, and you 
know it because you have had this since December, and that is 
my frustration. I could go on, but my time has expired.
    I will now recognize Ms. Maloney of New York for 5 minutes.
    Ms. Maloney. Thank you. I would like to ask Mr. Brandon to 
respond to my comments concerning really Congress not giving 
you the tools that you need to get the job done.
    When Congress first began working on this and we were 
looking into the shooting death of Agent Zapata in 2012, we 
were already--2011, I believe it was--we were already in the 
midst of an investigation of the so-called Operation Fast and 
Furious. And that was the botched attempt to target gun 
traffickers connected to Mexican drug cartels.
    And we had whistleblowers testify sitting right where you 
are right now, Mr. Brandon, and they asked us to give them the 
tools to get the job done. I can remember it like yesterday. He 
said we do not even bother to go after serious gun traffickers 
because there is no enforcement, and even if you caught them, 
you cannot do anything to them. It is just a paper violation. 
``A paper violation.'' Give us the tools. Make it a felony, 
make it a crime, and crack down on these straw purchasers who 
buy guns for criminals and then use them to kill our agents.
    Well, we did, Mr. Cummings and I along with members of the 
Republican Party, and actually Senator Duckworth. She was then 
a member of this committee. We drafted a bill that cracked 
down, and it has been universally endorsed by law enforcement 
across the country. Now, that was 5 years ago.
    So, I would like to ask Mr. Brandon, is it true that today 
there is no such dedicated statute targeting gun trafficking? 
Is gun trafficking still just a paper violation as your agent 
testified before us 5 years ago?
    Mr. Brandon. Yes, ma'am, nothing has changed.
    Ms. Maloney. And how big a problem is it? That makes guns 
flow easily, not only through Mexico, but probably throughout 
the world. I was talking to a representative from the 
Caribbean. They say guns flow all over the Caribbean from the 
U.S., but there is no law against it. Is that correct?
    Mr. Brandon. That is true, ma'am, and there is no doubt 
that a firearms trafficking statute would help deal with the 
gun violence in America.
    Ms. Maloney. Then I really want to ask my colleagues on the 
other side of the aisle to join Ranking Member Cummings and 
other members of this committee. Ms. Kelly was very active in 
it as there was a lot of violence in the district that she 
represents. And I for one thought after we had Newtown when the 
23 young children were killed, that we would act on gun 
violence.
    But the one bill that has bipartisan support and the one 
bill that law enforcement has come out almost universally in 
support of is give us the tools to do the job. So, my question 
is, if we did make that a Federal felony, if we did crack down 
on straw purchasers, would that help you? Would that help our 
law enforcement, not just ATF, but all law enforcement do their 
job in a better way to protect people?
    Mr. Brandon. Yes, ma'am, it would, in my opinion. 
Absolutely.
    Ms. Maloney. Now, the bill was supported by the American 
Bar Association, the Association of Prosecuting Attorneys, the 
Federal Law Enforcement Officers Association, Major Cities 
Chiefs Association, but, most importantly in my mind, the 
police and fire that are on the front line in the district that 
I represent across this country.
    So, let me ask you, Mr. Brandon, how serious is the problem 
of gun trafficking along the southwest border today? Has the 
concern in any way gone away?
    Mr. Brandon. The concern has not. We at ATF, without having 
that statute and with the laws that we enforce, have given 
credit for agents to have interdiction and deterrence of 
firearms rather than waiting for building a criminal case and 
where guns can get to the criminal element and be misused to 
shoot and hurt people.
    We are doing the best with what we have. And so, with 
interdiction deterrence--we refer to it as being on the left 
side of boom--and that is one of the strategies we have taken. 
But firearms trafficking along the southwest border and across 
the United States still is a problem.
    Ms. Maloney. Well, it is one that we can address. And for 
all of the talk of building a wall that may cost tens of 
billions of dollars along the southwest border, there is 
remarkably little talk about passing this law which costs 
nothing. This would cost nothing to the taxpayer to enact this 
law, which then would give our law enforcement the ability to 
better protect the American people, and it seems to me that it 
is just common sense. And our chairman is a commonsense guy, so 
I hope he will join the ranking member and myself, and I would 
say many members on this side of the aisle, and on the 
Republican side of the aisle.
    It is interesting. All of the Republican prosecutors, they 
know the problem, so they are co-sponsors of this. And we go a 
big step forward in combatting violent crime on the border in 
Mexico, and really the exporting of guns, and really the use of 
guns by criminals. Even if you sell one to a drug cartel, a 
criminal, a murderer, or whatever, there is no penalty for it.
    And I got to think that if we made it a penalty, and our 
bill has a 20-year visit to jail if you do so knowingly, then 
we could cut down on this violence. How many agents have to be 
killed by illegal guns that are sold to bad people because 
there is no enforcement against gun trafficking? It is a simple 
thing to do. We could pass it.
    Again, I join the ranking member in really pleading for a 
hearing on this bill that we have had in for 2 different 
Congresses now for 4 years, and we are reintroducing it today. 
I think it could help us solve the problem and give law 
enforcement stronger tools to crack down on the bad guys, on 
the bad guys that are buying these illegal guns and using them 
in terrible ways to kill people, including our own agents.
    My time has expired.
    Chairman Chaffetz. I thank the gentlewoman.
    Ms. Maloney. But I feel very strongly about this, and I am 
very frustrated because I would like to see some action. I 
would like to see this bill passed.
    Chairman Chaffetz. I thank the gentlewoman. We will now 
recognize the gentleman from Tennessee, Mr. Duncan, for 5 
minutes.
    Mr. Duncan. Thank you, Mr. Chairman. Mr. Horowitz, this 
committee depends in a significant way on work by inspectors 
general, and you have done very good work for this committee in 
the past. But I noticed that on March 8th, 2011, the Department 
of Justice referred questions about the firearms recovered at 
the scene of Mr. Zapata's death on March 8th, 2011. And then, 
on September 19th, 2012, Senator Grassley wrote a letter to it 
asking these same questions, yet your report did not come out 
until March 1st, 2017.
    I think several of us are concerned about that length of 
that time, that delay.
    Mr. Horowitz. Yes. We got the request and the referral from 
this committee and Chairman Grassley in September 2012, and the 
bottom line is there is no excuse. We should have gotten it 
done more promptly. I could tell you about some of the staffing 
issues we had and challenges we had on the Barba piece of the 
report. We learned some new information later on in the 
investigation that I think is important to the story here.
    But the bottom line is I agree with you, Congressman. And 
we have talked internally and are taking steps to make sure we 
can get these out more timely.
    Mr. Duncan. All right. Well, good. Do you believe there was 
probable cause to arrest both of the Osorio brothers and their 
neighbor, Kelvin Morrison, after the ATF witnessed completion 
of a transfer of 40 firearms on November 9th, 2010?
    Mr. Horowitz. That is what we found in our report, and I 
agree with you, Congressman.
    Mr. Duncan. Mr. Brandon, you said a few minutes ago that 
you were told this was, I think the words you used, that this 
was a proper way to handle this in telling Mr. Turk and Mr. 
Temple that this was up to them or something. Who told you this 
was the proper way to handle this?
    Mr. Brandon. I was speaking with attorneys within ATF and 
also with members from the Legislative Affairs at DOJ.
    Mr. Duncan. Can you tell us specifically the people that 
told you that this was the proper way to handle this?
    Mr. Brandon. I had my chief of staff, Joe Allen, 
communicating with the Department, and like I said, that with 
everything going on, communication was not the best. I will say 
to you, in respect to you and Mr. Chaffetz, as far as referring 
to it as crap, had I known this was the feeling coming down, 
and also to you, Mr. Cummings, you know, that this was your 
feelings, you know, that would be a different thing. I would 
say, well, hey, an invitation is really subpoena. There is no 
option here.
    And so, I just want to clarify that to you, that it was no 
disrespect from me as a leader and trying to shove it to the 
committee. That is absolutely not the truth. We have been 
trying to run to the truth. And so, I just want to make that 
clear of the intent, and to look you right in the eyes, Mr. 
Chairman, because I can see you glaring at me, that that is 
absolutely not how it went down.
    And an invitation, I am taking this and a clear 
interpretation from you is an invitation is really a subpoena. 
It is not an option. I get it, and they would be sitting here. 
And so, I just wanted to say I apologize for not having that 
political understanding of this.
    And also, saying I was trying to hide behind something for 
2 weeks. I am not a hiding type guy. And so, basically it was 
not B.S., and I just wanted to share that with all of you.
    Mr. Duncan. All right. Well, let me get to one other thing 
before my time runs out. The inspector general found that the 
Dallas Field Division simply failed to do its job. The report 
says the supervisor of ATF's Dallas Firearms Group was not 
sufficiently proactive, and failed to ensure that the leads the 
ATF had received about Osorio and Morrison were investigated, 
and that consultations with prosecutors had started. What do 
you say about that?
    Mr. Brandon. Sir, I agree with the OIG, Mr. Horowitz, and 
his team. We had a supervisor that has retired that was over 
our firearms trafficking that was asleep at the switch, and I 
totally agree with it, the findings of the OIG.
    Mr. Duncan. And have you taken steps to see that something 
like this does not happen again in the future?
    Mr. Brandon. Yes, sir. I mean, as I mentioned in my opening 
statement, we developed a Frontline intelligence-led, risk-
based way of doing business. One of the key components of that 
is each division, we have 25 of them around the country, has to 
do a domain assessment and have to share that domain assessment 
with the U.S. attorney. And that is an important part because 
of the communication that was lacking.
    And if we are out of step with the U.S. Attorney's Office, 
if we are not in step, we are out of step, and we do not want 
to waste our limited investigative time, our resources and time 
if they are not going to be prosecuted. So, to share that with 
you, sir, that is how we have tightened it up, and that was 
implemented in the beginning of 2012, and I will leave it at 
that.
    Mr. Duncan. All right. Thank you very much.
    Chairman Chaffetz. I thank the gentleman. We will now go to 
the gentleman from Virginia, Mr. Connolly, for 5 minutes.
    Mr. Connolly. I thank the chair, and I welcome the panel.
    I would just say to you, Mr. Brandon, on a bipartisan 
basis, I mean, when executive branch officials are invited to 
testify before Congress, it is an invitation, but it is also an 
obligation. And I appreciate what you have said, but I do not 
think it ought to require a subpoena to get the executive 
branch to be accountable to the legislative branch. That is our 
constitutional system, and we do not want to go down that road. 
I do not think we want to set the precedent that the only way 
we can compel your testimony is by subpoena. I am sure you 
would agree.
    Mr. Brandon. Sir, yes, I totally agree, and had I 
understood this storm coming down on me right now, they would 
be sitting here.
    Mr. Connolly. Okay. You are the acting director of the ATF. 
In the last 10 years, how many confirmed directors have there 
been at the ATF?
    Mr. Brandon. I am sorry, sir, in how many years?
    Mr. Connolly. In the last decade.
    Mr. Brandon. There has only been one. It was ----
    Mr. Connolly. One. And how recently was that?
    Mr. Brandon. I believe it was July 31st, 2013. It was B. 
Todd Jones, my former boss.
    Mr. Connolly. So, for most of the decade, we have had 
acting directors. Is that correct?
    Mr. Brandon. That is correct, sir.
    Mr. Connolly. And the reason for that is what?
    Mr. Brandon. Well, it is presidentially nominated, Senate 
confirmed.
    Mr. Connolly. And the Senate gave it the slows.
    Mr. Brandon. Well, I would say that the process is slow.
    Mr. Connolly. What has happened to your budget?
    Mr. Brandon. Well, like many in the Federal government, you 
know, you could do more with more, and the budget with ATF is 
tight. And in candor, sir, with what I refer to here being up 
in D.C. as decimal dust to the Federal budget of $50 million to 
$100 million extra ATF, we could make a significant input with 
technology to help our State and local----
    Mr. Connolly. But, I mean, in the last 6, 7 years. I mean, 
we are so concerned about things like Fast and Furious and the 
tragic death of Mr. Zapata. We have certainly beefed up your 
budget with additional resources, have we not?
    Mr. Brandon. No, sir. No. Our budget has been eroding.
    Mr. Connolly. Really, eroding. So, we do not want to 
confirm a director, at least not very often. We have 
deliberately left the organization, with no disrespect to you 
or your predecessors who were in an acting capacity, but the 
proper form is to have a confirmed director of the Agency. We 
have actually reduced the resources available to you.
    And, as Ms. Maloney just pointed out, despite testimony, 
and your testimony is consistent with other agents who have sat 
here. I remember one hearing where I believe it was the agent 
from Phoenix who said, yeah, that would be a tool we want. And 
I remember the then chairman, not this chairman, actually 
interfering with the testimony because he did not like the 
answer, and actually started to direct the answer.
    It seems to me that we cannot have it both ways in 
Congress. If we want you to do your job and do it well, and we 
want to achieve the goals the Agency has and has set for 
especially the southern part of our border, it seems to me we 
have to do our jobs. And I am not sure we have consistently 
done that. You can comment or not, Mr. Brandon.
    Mr. Brandon. No, sir. Look, I have a lot of friends, 
Democrats and Republicans, and I will say raise your hand if 
you are in favor of gun violence, and I have never seen a hand 
go up. This is an American issue. It is not a ``D'' or an ``R'' 
issue.
    Mr. Connolly. Yeah, but it is quite another matter if we 
are unwilling to do something about it.
    Mr. Brandon. Oh, I agree. That is what you guys are here 
for.
    Mr. Connolly. Mr. Horowitz. Your office issued 
recommendations from the Operation Fast and Furious review in 
2012. Is that correct?
    Mr. Horowitz. That is correct.
    Mr. Connolly. And did ATF make major improvements pursuant 
to those recommendations?
    Mr. Horowitz. The ATF, as we noted in last year's follow-up 
review, made significant changes to their policies and 
practices.
    Mr. Connolly. Anything glaring that still needs to be 
resolved?
    Mr. Horowitz. Not from ATF.
    Mr. Connolly. Not from ATF. Okay. Your office also issued a 
report reviewing, well, you reviewed the implementation and it 
was a favorable report.
    Mr. Horowitz. As to ATF.
    Mr. Connolly. As to ATF. Who is not favorable?
    Mr. Horowitz. There were two outstanding recommendations, 
one with regard to the FBI, which had not put in place a policy 
regarding when guns should or should not be seized, and DEA 
regarding, among other things, regarding notifications to ATF, 
which played itself out in this case that we are here today to 
talk about.
    Mr. Connolly. Thank you. Mr. Brandon, final point. I have 
got 10 seconds. Thank you for your service. Thank you to the 
men and women of the Agency. I just hope Congress will back you 
up.
    I yield back.
    Mr. Brandon. Thank you, sir.
    Chairman Chaffetz. And right on time. I am highly 
impressed.
    Mr. Connolly. [Off audio.]
    Chairman Chaffetz. See, you got constituents in the crowd. 
I would just further note to tell you how on time that Mr. 
Connolly is, at least today. So, this is good.
    Mr. Connolly. I thank the chair for his praise.
    [Laughter.]
    Chairman Chaffetz. Thank you. I will now recognize Mr. 
Farenthold of Texas. And I think, as he will tell you, Mr. 
Zapata was a constituent of Blake Farenthold's, so.
    Mr. Farenthold. Thank you, Mr. Chairman. When I was first 
elected in 2010, I had the privilege of representing the Rio 
Grande Valley in Brownsville, and Agent Zapata and his family 
grew up in Brownsville. So, this is a very important issue to 
me.
    Before I get started, though, I do want to address one or 
two things Mr. Connolly had said, the first of which is I think 
the Senate does need to be much more speedy in their 
confirmation process, and would urge Mr. Connolly to speak to 
some members of his Party over there about that as we are in 
the middle of quite a few confirmations now.
    Mr. Brandon, you also testified that you could do more with 
more resources. And I think everybody that I regularly 
associate with in Congress wants to give our law enforcement 
agencies, be it yours or the others, the tools necessary to do 
what they need to do. But I would imagine you would not want to 
see your taxes go up significantly to fund that either.
    Mr. Brandon. No, sir. I am fiscally conservative.
    Mr. Farenthold. So, as much as we would like to, there are 
a lot of things we have got to do in this government, and that 
is why we are asking you and the fine men and women who work 
for you, you know, to do more with less, just like we are 
asking the vast majority of the government to do the same.
    But let me get along to my lines of questioning. And I do 
not want to pound on about the fact that the other folks are 
not here, but I want to explain the frustration that this 
committee faces. We faced 6 years of stonewalling, a lot of 
which has to do with Fast and Furious, to the point that we 
held the former Attorney General in contempt of Congress and 
pursued litigation against him and to obtain documents from the 
Department of Justice.
    So, there is a frustration here that we would hope would 
start to evaporate with new leadership in the executive branch. 
Obviously, we are early on in there, and we do not have folks 
confirmed. But this stonewalling does nothing but cost the 
taxpayers dollars and deny the American people the opportunity 
to have good oversight of their government. So, you know, I am 
not pounding on it. I just wanted to explain that frustration 
to you and where we are coming from.
    But let us talk a little bit about what is going on now and 
the report. So, let me start with Mr. Horowitz. Let us talk a 
little bit about Fast and Furious and the gun running 
operation. Can you in roughly a minute tell me what we have 
learned and what still needs to be done as a result of your 
investigation into this? Just bullet points.
    Mr. Horowitz. Yeah. So, with regard to Fast and Furious, 
our follow-up review, and now this review, the couple of open 
recommendations that still are out there involve, in particular 
on this matter, on the Mr. Barba side of the case we found once 
again that one Federal law enforcement agency, in this case 
DEA, failed to tell another law enforcement agency, in this 
case ATF, about gun trafficking activity that it knew about.
    That failure was, in our view, significant and important, 
and should not have occurred. And DEA needs to have a policy in 
place that ensures that its agents develop that ----
    Mr. Farenthold. All right. We have fusion centers 
everywhere. What are we not doing? I mean, I have been to 
multiple fusion centers where you guys are supposed to be 
talking to each other.
    Mr. Horowitz. Yeah. Look, I think that is a concern. We saw 
that, as you will recall, in Fast and Furious between ICE and 
ATF, the lack of sharing of information. It is an issue that 
continues to arise, and as these centers exist it needs to be 
addressed and overcome. There is no excuse for it.
    Mr. Farenthold. I am sorry. I have a lot of questions and 
not a lot of time. Mr. Brandon, I want to ask you to reassure 
me that we do not have any programs like Fast and Furious going 
on now where we are letting weapons move across borders in an 
attempt to get the bigger guy. Have we learned that lesson?
    Mr. Brandon. Yes, sir, and one of our things for responding 
to that was the Monitored Case Program that I have every month 
in these cases, which anything dealing with international 
trafficking are briefed up to me. One of the things we put in 
there is progress, plans, and problems. And if a problem is 
identified of communication, it is to communicate, collaborate, 
and de-conflict, and from the briefings to me, and which I am 
very actively involved because I was a street agent in the 
field. Got shot at and all the other stuff, so I am not a suit 
in D.C.
    Mr. Farenthold. And let us talk about getting shot at, too. 
What programs have we, if any, Mr. Horowitz, have we 
implemented with respect to our various law enforcement agents 
detailed to countries with high drug violence, like Mexico, to 
ensure that they are safe? At the time of the Zapata shooting, 
they were unarmed due to our policies in dealing with Mexico. 
Has anything changed where our agents are able to carry weapons 
or they are escorted by Mexican agents who are armed?
    Mr. Horowitz. I know there remain issues with regard to 
that, Congressman. If I could get back to you on that and 
follow up, I would appreciate it.
    Mr. Farenthold. Thank you very much. I see my time has 
expired.
    Chairman Chaffetz. I thank the gentleman. I now recognize 
the ranking member, Mr. Cummings, of Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman. Mr. 
Horowitz, your report identified serious deficiencies in the 
actions of the U.S. Attorney's Office for the Eastern District 
of Texas against the drugs and firearms trafficker named Manuel 
Barba. Specifically, according to your report, and I quote, 
``The assistant U.S. attorney handling the Barba drug 
prosecution should not have agreed to Barba's release from 
Federal custody in July 2010 following his indictment and 
ultimate plea in the Eastern District of Texas, leaving him at 
liberty to leave the Bates Allen Crew, and ultimately direct 
the straw purchase and trafficking of the firearm to Mexico.''
    Apparently, the DEA had recorded statements of Mr. Barba 
saying that he planned to traffic 20 AKA-47s, and those 
statements were included in the DEA report. But your report 
found ``no evidence'' that the prosecutor ``read the DEA report 
that recited Barba's statements.'' Mr. Horowitz, that sounds 
like a serious mistake that had significant repercussions. 
Would you agree?
    Mr. Horowitz. Yes.
    Mr. Cummings. I think they tell children, they measure 
children's progress in the first grade, and one of the things 
they measure is follow directions. It seems like you would read 
a document. Would you agree?
    Mr. Horowitz. Yes.
    Mr. Cummings. So, Mr. Barba was released following the 
prosecutor's motion in July 2010. About 1 month later, Mr. 
Barba's trafficking ring purchased the firearm that was later 
used in the Zapata shooting. Is that correct?
    Mr. Horowitz. That is correct.
    Mr. Cummings. So, Mr. Barba was not re-arrested until 
February of 2011. That is 7 months that he was free to operate 
his gun trafficking ring, 7 long months. So, Mr. Horowitz, do 
you know how many firearms were trafficked by Mr. Barba's ring 
during that 7-month period?
    Mr. Horowitz. The information that we have currently, but 
would require further investigation, determined is at least 10 
firearms were purchased by Riendfliesh on August 20th. We 
cannot rule out that there were not others, but there are at 
least 10 post to the July release.
    Mr. Cummings. So, these were very serious findings, and I 
do commend your office for uncovering them. But I understand 
the U.S. attorney acknowledged that his office dropped the ball 
and made some changes to their policy around the release of 
defendants before securing their cooperation.
    Now, Mr. Horowitz, do you know whether the prosecutor who 
made this significant error was ever disciplined in any way for 
mishandling the Mr. Barba case? And you would agree that it was 
a mishandling, would you not?
    Mr. Horowitz. I agree, and I do not know the answer as I 
sit here, but certainly we can follow up and get back on it.
    Mr. Cummings. How soon can you get back to me on that, 
today? That should be easy.
    Mr. Horowitz. Well, it depends on the Department providing 
me the information. I do not have the information in my files, 
so we need to go to the Justice Department to get that and 
alert them to your request.
    Mr. Cummings. All right. Mr. Horowitz, I do not know if you 
are aware of this, but my staff did a little research on that 
prosecutor. And in 2013, the New York Post posted that same 
prosecutor who mishandled the Barba case, and he criticized 
Trayvon Martin on social media, called President Obama the, and 
I quote, ``Dalibama,'' and said that, I quote, ``Obama: Why 
Stupid People Shouldn't Vote.'' That was the same prosecutor.
    Do you know whether the prosecutor was disciplined in that 
instance, or were you aware of any of that?
    Mr. Horowitz. I was aware of it, and I am limited in what I 
can say with regard to any personnel action in a public 
setting. So, we would have to have further discussions with you 
about that.
    Mr. Cummings. But it appears that the prosecutor still 
works in the office. We invited him to appear here today to 
provide him with an opportunity to respond to your findings and 
address what I think are very serious questions about his 
judgment. He declined. And, you know, when we are paying people 
to do the work of the Federal government and they have those 
kinds of attitudes, there is no place for that. There is just 
no place for it, and it concerns me greatly.
    And, you know, I do not mind saying it. I think President 
Obama is one of the most brilliant persons I have ever met and 
very principled, and these kind of comments simply have no 
place in our society.
    So, I will yield back on that.
    Chairman Chaffetz. The gentleman yields back. I will now 
recognize the gentleman from North Carolina, Mr. Walker, for 5 
minutes.
    Mr. Walker. Thank you, Mr. Chairman. Mr. Brandon, how are 
you holding up? Doing okay?
    Mr. Brandon. I have had better days.
    Mr. Walker. Okay. All right. I do not want your probably, 
even though I am not familiar with it, your distinguished 
career to be defined in a few minutes here today. So, I want to 
make sure that we are kind of starting over and getting some 
information here.
    You mentioned that you talked with your attorneys and chief 
of staff about the best decision, whether or not to bring or 
advise Mr. Turk and Mr. Temple. Early on you were pretty 
defiant as far as saying you are agreeing with these decisions. 
Did you not get good counsel from attorneys or your chief of 
staff of talking about the importance of coming to testify 
before Congress?
    Mr. Brandon. From my opinion, sir, I believe that there was 
a misunderstanding of what an invitation is to come before you. 
Now I know, so I would weigh in differently, you know, during 
that. But also, we are a component within DOJ, so we have to 
coordinate through the Department of Justice.
    And I want to be fair to them, these people who are dealing 
with the DAG hearing and everything else, and so, I take 
responsibility. I am not going to duck it as far as I thought 
it was the best thing to do. And you can see, I am plain 
spoken. I am not a polished headquarters type person. And to 
answer your question, knowing what I know now, like I 
previously said, and to be respectful to this committee, I 
would have a different view of things weighing in.
    Mr. Walker. You have made a couple of comments about that. 
You are not a suit in D.C. You are more of a non-polished guy. 
You have kind of like a just do the job type personality. How 
long have you been the acting director there, Mr. Brandon?
    Mr. Brandon. Well, if I may say so, to answer your 
question, since April 1st. I say that, that that does not 
measure someone's intelligence, or drive, or commitment to do 
that job. I just say it is my style and who I am, and I try to 
be who I am. But since April 1st of 2015 I have been acting 
director.
    Mr. Walker. Sure, okay. So, coming up on 2 years. You know, 
you understand the responsibility. I mean, even though you may 
not be on the street and you are wearing a suit and tie, you 
understand the responsibility of being the director, right, the 
acting director?
    Mr. Brandon. I have been living and breathing it 7 days a 
week.
    Mr. Walker. All right. So, with that comes with the 
responsibility of fulfilling the requests or the obligation 
that comes with the position. My specific question today that I 
want to get into, 2 weeks ago the committee requested documents 
on a North Carolina churning investigation reported on in the 
New York Times. Tomorrow is the deadline for that request. Can 
you tell me what steps have been taken to collect, identify, 
and produce those documents responsive to the committee's 
February 22nd letter?
    Mr. Brandon. Yes, sir. I have a team inside headquarters, 
and I actually pulled people off the street that have knowledge 
of these types of investigations, and working through the 
weekend and everything to meet the document production that we 
are allowed to do.
    Mr. Walker. I believe the New York Times also talked about, 
maybe even have written you guys about the informants receiving 
more than $1 million. Precisely how much did each informant 
receive?
    Mr. Brandon. You know, sir, and this is what I mentioned in 
my opening statement, and this is advice I have gotten through 
the attorneys as the U.S. government is named in that lawsuit. 
And the judge has it under seal, and I cannot comment before 
the committee.
    Mr. Walker. Like you cannot comment on the amounts?
    Mr. Brandon. I have been told not to comment on anything 
regarding the litigation that the United States government is a 
party to.
    Mr. Walker. So, you cannot say what the purpose of these 
payments were, were they profit or expenses paid on behalf of 
the government, whether all the money and the property was 
accounted for, or were any of these payments in cash. So, any 
of those questions you are telling me that you cannot address 
at all.
    Mr. Brandon. Yes, sir, that is what I am saying.
    Mr. Walker. Okay. Well, then let me switch to, I know you 
said earlier you cannot go back to 2010. Let me talk about 2015 
and 2016. Can you tell me how many straw purchases or firearm 
trafficking cases did the ATF refer for prosecution in 2015 and 
2016, respectively?
    Mr. Brandon. I do not have those numbers in front of me, 
but I will take them back and report back to the committee, 
sir.
    Mr. Walker. So, if you do not have those numbers, you would 
not have any numbers as far as how many of those cases were 
ultimately prosecuted either. Is that correct?
    Mr. Brandon. With our system, I would be able to get that 
information, too, as far as recommended for prosecution, and we 
track the ones that get prosecuted and convicted.
    Mr. Walker. I have a few more questions, but I am just 
going to wrap it up this one because my time is quickly 
expiring. What is ATF doing to ensure agents coordinate with 
the prosecutor in U.S. attorneys' office as early as possible 
in their investigations?
    Mr. Brandon. Thank you for the question. Part of what I 
mentioned about Frontline with our domain assessments, even for 
our strategic plan for the year, they have to coordinate. And 
an ATF agent cannot open an investigation anymore, and this 
came after Fast and Furious. They have to coordinate with their 
supervisor, and then they have to note that they have consulted 
with an AUSA.
    Mr. Walker. Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman. I will now 
recognize the gentlewoman from New Jersey, Ms. Watson Coleman.
    Ms. Watson Coleman. Thank you very much. First of all, to 
the Zapata family, please accept my condolences even at this 
late date. And I know it is even difficult to have to be 
revisiting this so many years later.
    Mr. Horowitz, this is basically for you. In light of the 
recent reporting of the ATF tobacco diversion case, I would 
like to ask about the status of the recommendations in the IG's 
audit of ATF churning operations. The order was released in 
2013?
    Mr. Horowitz. That is correct.
    Ms. Watson Coleman. How many of these recommendations are 
now closed out?
    Mr. Horowitz. We made 17 recommendations, and all 17 are 
now closed out.
    Ms. Watson Coleman. Good to hear. So, and there is no need 
for a follow-up then.
    Mr. Horowitz. Well, there might have been, but we are 
informed, as the acting director said in his testimony, that 
the ATF has shut down their operations. So, at this point there 
would be nothing for us to ----
    Ms. Watson Coleman. I want to tell you that we appreciate 
the work that you do and how important your function is. And 
having said that, I would like to kind of bring us up to date 
on some questions that I have.
    It seems like every day there is a new revelation about the 
contacts between this President's campaign, and actually his 
Administration, and his associates, and even his family, and 
Russian officials. First, there were reports that former policy 
advisor, Carter Page, traveled to Moscow. It was denied, then 
it was admitted. But we have got indications that there have 
been interactions with Page, and Roger Stone, and Rick Gates, 
and Paul Manafort, and Michael Flynn, now the Attorney General, 
the son-in-law, Jared Kushner, even reports of Donald, Jr. and 
J.D. Gordon.
    In light of this, I would like to ask you, do you realize 
why Congress would be so very, very concerned about these 
things, and these revelations that are coming to bear?
    Mr. Horowitz. Well, just broadly speaking, I certainly 
understand why folks would have questions about various issues.
    Ms. Watson Coleman. Thank you. Mr. Horowitz, Senator 
Schumer recently sent his letter asking you to open an 
investigation into whether there has been any political 
interference with any ongoing DOJ investigation that is related 
to President Trump's campaign, transition, and Administration's 
contact with Russia, as well as attempts by Russia to interfere 
with our election. And I would like to add my strong support to 
Senator Schumer's request for an investigation of these 
matters.
    Can you tell me whether you will be investigating whether 
there was any political interference with any potential DOJ or 
FBI investigations on this matter?
    Mr. Horowitz. Congresswoman, we have Senator Schumer's 
letter, a letter from other senators. We have the chairman's 
letter on a matter related to it. And we are reviewing that and 
deciding and considering what, if anything, we should be doing 
with regard to that matter.
    Ms. Watson Coleman. Could you pledge to us that any 
investigation, if undertaken, will be fact based and thorough, 
and that the American people will be informed to the extent 
that it is significant and possible, and not a threat to our 
security at home?
    Mr. Horowitz. Absolutely, Congresswoman. Every piece of 
work we do, we do with the two principles that every IG office 
operates under, which is independence and transparency. And if 
and when we do any work in that area, we would do the same 
thing that you have seen from us in the matters that we are 
here to testify about today.
    Ms. Watson Coleman. Thank you, Mr. Horowitz. We are 
definitely thirsty and hungry for the truth in these matters.
    Mr. Brandon, let me just echo some of the concerns that we 
were raised by my chairman and my ranking member as it relates 
to the absence of the 2 individuals that have been expected to 
be a part of this today. I think that is very unfortunate. I 
thank you acknowledging the fact that perhaps this was a wrong 
call on your part, and I certainly hope that we have better 
cooperation in the near future.
    Mr. Chairman, I yield back. Thank you.
    Chairman Chaffetz. I thank the gentlewoman. I will now 
recognize the gentleman from Georgia, Mr. Hice, for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman. Just following up 
because I think it is pretty unavoidable connecting some dots 
here, Fast and Furious and all of this. Of course, the program 
lasted from 2009 to 2011, allowing weapons from the U.S. pass 
to suspected gun smugglers. We ended up losing some 1,400 
firearms during that, many of which ended up being used in 
crimes, including the death of Border Patrol Agent Brian Terry 
in December of 2010.
    All right. Shortly after that Fast and Furious ends, and 
then investigations begin both with this committee and the 
House Judiciary Committee, and that is a fascinating process to 
me. Let me just highlight some of the issues that take place.
    In October 2011, documents are obtained after Eric Holder 
was subpoenaed, documents. It is found that his testimony was 
inconsistent. He said he knew of Fast and Furious for only a 
few weeks. The documents revealed he knew over a year. February 
2012, Holder tells this committee that firings and charges 
against DOJ officials who oversaw Fast and Furious are likely 
to come within 6 months, and he denies any cover up 
involvement.
    June of that year, this committee recommends Holder to be 
held in contempt of Congress for failing to turn over documents 
that have been sought by the committee. On that same day, 
President Obama asserts executive privilege over the documents 
that are sought by this committee. Then 8 days later, the House 
here votes to hold Eric Holder in criminal contempt.
    The next month, a congressional report is released placing 
blame on Acting ATF Director Nelson, and Deputy Director 
Hoover. Hoover resigns that day. Then you, Mr. Horowitz, 
release a report a few months later that says, in essence, that 
there were 14 ATF individuals and DOJ employees who were 
responsible for management failures. I think that was a very 
polite way of putting it. And then, it takes 2 years before 
finally DOJ turns over the 65,000 pages that had been sought.
    Why did it take so long to get those 65,000 pages?
    Mr. Horowitz. I would not know the answer on that, 
Congressman. We were not involved in the litigation or any of 
that ----
    Mr. Hice. You were not involved in that. Do you know if any 
action was ever taken against those who were involved in the 
Fast and Furious scandal?
    Mr. Horowitz. The acting director.
    Mr. Hice. Okay.
    Mr. Brandon. Yes, Congressman. That would be me as the 
deciding official on Fast and Furious. Many of the people 
retired, but I know that, I believe it was July of last year, a 
document was provided to this committee regarding each person 
listed and their status, and any discipline they received. And 
to respect the privacy laws, that is how it was delivered, and 
it is DOJ policy that I not speak publicly on those ----
    Mr. Hice. So, there was some action taken against some. Is 
that ----
    Mr. Brandon. There was action, and things were resolved.
    Mr. Hice. Okay. Could you provide this committee with what 
action was taken, because it appears as though there was some 
criminal activity involved.
    Mr. Hice. Let me ask you, Mr. Horowitz. Would you agree 
with that? I mean, in your findings, you used the phrase 
``management failures,'' but I think Congress is holding Eric 
Holder in criminal contempt. I mean, is there criminal activity 
involved in this whole Fast and Furious?
    Mr. Horowitz. We did not see criminal activity by the 
agents or the prosecutors involved in the case. We did find, as 
you noted, very serious failures in what occurred and how they 
handled themselves and their responsibilities.
    Mr. Hice. Okay. With Eric Holder?
    Mr. Horowitz. Again, Congressman, on the documents back and 
forth, given our independence as an independent entity within 
the Department, we were not in the middle of any of the back 
and forth. And so, I only know what I have read in the 
newspaper about that.
    Mr. Hice. Okay. Do you have any idea of how much of the 
65,000 pages they finally turned over were redacted percentage 
wise?
    Mr. Brandon. Sir, I do not.
    Mr. Hice. Okay. Mr. Brandon, I mean, as a result of Fast 
and Furious, you have testified that there are lessons learned. 
Things have changed. Now, does ATF, do you believe, have a 
responsibility to disrupt potential straw purchasing, even if 
they are unable to obtain a prosecution?
    Mr. Brandon. Yes, sir. As I commented, that was one of the 
things when I came up here saying that agents do not get credit 
for interdiction and deterrence, and I will give you an 
example. My life was impacted. I was in Detroit. I got sent to 
Phoenix over Fast and Furious. And when I was sitting down with 
people looking at information coming in on multiple sales, it 
would be, hey, we do not have the time to build a criminal 
case. And I said, hey, you can knock on the door and do an old 
shoe leather, and that was the interdiction or deterrence and 
emphasizing that.
    So, to answer your question, we now give credit for ATF 
agents who do exactly that investigative work where previously 
they did not get credit in all the spirit of public safety to 
prevent guns, like I mentioned, to be on the left side of boom, 
to prevent it from happening.
    Mr. Hice. Okay. Thank you, sir. I yield back.
    Chairman Chaffetz. Thank you. I now recognize the 
gentlewoman from the Virgin Islands, Ms. Plaskett, for 5 
minutes.
    Ms. Plaskett. Thank you, Mr. Chairman and Ranking Member. 
We were talking just now about Fast and Furious, and several 
members on this committee are, of course, very familiar with 
the ATF problems in previous years through the investigation 
that occurred on this committee.
    Mr. Horowitz, your office issued recommendations from Fast 
and Furious review in 2012. That is correct, right?
    Mr. Horowitz. That is correct.
    Ms. Plaskett. And, Mr. Brandon, you say that there are key 
lessons that ATF has learned from in the aftermath of Fast and 
Furious and how the Agency has changed, correct?
    Mr. Brandon. Yes, ma'am.
    Ms. Plaskett. Would you say those are substantial?
    Mr. Brandon. Yes, and cultural within the organization.
    Ms. Plaskett. Now, was that based on just the IG's report 
or this committee as well?
    Mr. Brandon. Well, I think a combination of both to answer 
your question, ma'am.
    Ms. Plaskett. Thank you. And, you know, this committee, of 
course, relies on you, Mr. Horowitz, tremendously. I think 
maybe you should have a seat up here as well. You come and 
testify in front of us so often. Well, maybe not up here, but, 
you know, you can have a staff seat because we rely on you so 
tremendously for the work that you do that then leads to other 
investigations, leads to hearings that we have, as in Fast and 
Furious.
    Last week, Mr. Horowitz, a number of Senate Judiciary 
members wrote to your office requesting an investigation of 
Attorney General Jeff Sessions and his recusal decision, his 
contacts with Russian officials, and his testimony to the 
Senate about those contacts. Did you receive that letter from 
those senators?
    Mr. Horowitz. We did.
    Ms. Plaskett. Okay. And can you tell us whether you plan on 
conducting that investigation?
    Mr. Horowitz. One of the things we do when we get requests 
like that, and we have gotten a request from Senator Schumer as 
well, the chair of this committee, chair of House of Judiciary 
related to certain issues there, is we take them under 
advisement, carefully assess what the ask is, and then make a 
determination.
    So, at this point I do not have an answer for you on what, 
if anything, we might do in response. But we obviously take 
requests like that seriously and we will look at it.
    Ms. Plaskett. So, you are looking at it.
    Mr. Horowitz. Right.
    Ms. Plaskett. You are taking it under advisement.
    Mr. Horowitz. Correct.
    Ms. Plaskett. And at some point, would you let us know if 
you are going to make an investigation, or do you just conduct 
the investigation without our ----
    Mr. Horowitz. We always respond to the member to let them 
know what we are intending to do.
    Ms. Plaskett. Thank you. And we really appreciate that 
because it is the independence and the transparency of the IG's 
office that makes your work so important to us. And it is 
important that we believe that everyone understands the 
Department of Justice's own rules and regulations on recusals.
    The Code of Federal Regulations state, and I am quoting 
here, ``No employee shall participate in a criminal 
investigation or prosecution if he has a personal or political 
relationship with any person or organization which he knows has 
a specific and substantial interest that would be directly 
affected by the outcome of the investigation or prosecution.''
    The regulations go on to state, ``A 'political 
relationship' means a close identification with an elected 
official or candidate arising from service as a principal 
advisor thereto or principal official thereof.'' We all know 
that Attorney General Sessions was the first senator to endorse 
Donald Trump in his presidential bid. He served as a key 
surrogate throughout the campaign, including since March of 
2016, in his official role as chairman of President Trump's 
National Security Advisory Committee.
    Mr. Horowitz, would you agree that Attorney General 
Sessions' role on the campaign meets the regulations criteria 
for recusal?
    Mr. Horowitz. I am going to defer on that, Congresswoman, 
if I could because that is obviously something we would be 
thinking about in connection with the claims, allegations made 
in the letter.
    Ms. Plaskett. And would you say that as well to my question 
of whether you agree or not that the Attorney General has a 
political relationship with President Trump and his campaign 
for President?
    Mr. Horowitz. Again, I would defer on that for now, 
Congresswoman.
    Ms. Plaskett. And do you agree or would you defer to answer 
that President Trump has a specific or substantial interest 
that would be directly affected by the outcome of any 
investigation into Russian interference in the 2016 election?
    Mr. Horowitz. I would defer as well, Congresswoman.
    Ms. Plaskett. Okay. Thank you. Mr. Horowitz, from our 
reading, his final announcement, the Attorney General's 
announcement that he would recuse himself would then have us 
conclude that he is recusing himself because of his role in the 
Trump campaign. Would you agree or not agree with that?
    Mr. Horowitz. Again, I would defer given our review of the 
allegation that we have been getting.
    Ms. Plaskett. And then, okay. So, but, I mean, just 
following the logical conclusion of that, should not other 
officials working at the Justice Department who worked for the 
Trump campaign also recuse themselves from investigations 
related to the Trump campaign and to Russian interference?
    Mr. Horowitz. I would want to know if there are such 
officials in the Justice Department and whether they have 
recused or not before answering ----
    Ms. Plaskett. Would your investigation as presented by the 
senators requesting that you investigate this, would it also 
entail you looking to see if there were officials, or would it 
merely be within the scope of Attorney General Sessions?
    Mr. Horowitz. I think it is fair to say that with any 
reviews we do, once we undertake a review, if we found other 
issues to look at that were closely related, we would pick up 
those issues as well.
    Ms. Plaskett. Okay. Thank you so much for responding to my 
questions, and I thank you for your indulgence, Mr. Chairman.
    Chairman Chaffetz. The gentlewoman yields back. I will now 
recognize the gentleman from Oklahoma, Mr. Russell, for 5 
minutes.
    Mr. Russell. Thank you, Mr. Chairman, and thank both of you 
for being here, and Mr. Horowitz, your continued dedication, 
and thank you, Mr. Brandon, for your service. I have a lot of 
respect for the field agents. However, there are some troubling 
questions that really have not been answered.
    June, August 2010, we had the Eagle Pass and La Pryor 
seizures. We know that these firearms are being trafficked. We 
have obliterated serial numbers. And notwithstanding what we 
heard in testimony here today from you, Mr. Brandon, about the 
uncertainty of how whether or not something could be seized or 
we need more laws, it is pretty clear, as you should know, that 
serial numbers obliterated constitute a real problem. And we 
can go into what those codes are.
    With regard to 2010, an ATF agent is tipped off by an FFL, 
often demonized. FFL is often demonized as the problem for 
making straw purchases when the reality is they are the ones 
linking some of this because of their alertness. And then a 
decision is made at that point to allow the straw purchase to 
try to continue when we have already had the Osorios linked and 
tied with the La Pryor and the Eagle Pass seizures. But yet, we 
are going to continue on with that.
    So, my question to you, Mr. Horowitz, in your 
investigation, what value could you determine that these agents 
or others would find by allowing dozens of illegally purchased 
firearms to continue to walk?
    Mr. Horowitz. In this review, like in Fast and Furious, I 
think that is one of the significant concerns we have. This was 
a different scenario than Fast and Furious, as we outlined, but 
when you see firearm violations and you have the opportunity to 
make arrests or take other investigative activity given the 
risks associated with them, it is important to do that. The 
firearms you mentioned at those two seizures had 2 days to 2 
weeks of time to crime stat, so.
    Mr. Russell. Which is a real problem. And so, okay, you can 
kind of look at, well, within the next month they did make a 
purchase with an agent. But now we have 40 more firearms with 
obliterated serial numbers. Mr. Brandon, why did that not 
result in an instant arrest? We are talking literally scores of 
firearms now illegally trafficked. ATF is fully aware of it, 
and yet nothing happens in November 2010. Why was that?
    Mr. Brandon. The explanation from the Dallas Field 
Division, which Bill Temple was not in charge ----
    Mr. Russell. Yeah, we would like to have heard from him.
    Mr. Brandon. So, he used to work for me in Detroit, and he 
just got to Dallas, I believe, less than a year ago. But I am 
not here to defend that other than there was ----
    Mr. Russell. Why was no arrest made? I mean, we are talking 
scores of firearms. We know they are going south. Why was no 
arrest made in November 2010?
    Mr. Brandon. There was a sensitive DEA investigation going 
on.
    Mr. Russell. Okay. Well then, let us move on from that 
because here is another problem that we have. We have the 
Osorios tied to this, and yet there is some uncertainty on the 
part of the ATF agents when by the time they get to February of 
2011, they are not sure if they go and find in Osorio's 
bedrooms these firearms, whether or not they are allowed to 
seize them.
    Well, my goodness, as the only firearms manufacturer in 
Congress, gee, even I know that if you have got illegal 
firearms in somebody's bedroom, and you had a good warrant to 
go in and check it out, and you have got obliterated serial 
numbers, you are in deep kimchi. So, what happened?
    Mr. Brandon. Well, sir, I agree with the OIG. The group 
supervisor for the Firearms Trafficking Group, he failed to 
communicate that to the agents who were there. Again, I am not 
defending it, and how we have ----
    Mr. Russell. And this is the frustration that we have, Mr. 
Brandon, because what has happened is, you know, we had 
dedicated agents, like yourselves, who lost their lives because 
people were not doing their job. And worse, we had a desire on 
the part, which we have been trying to get to the bottom of, of 
people who allowed these firearms to walk south for reasons yet 
to be determined. And yet, everyone wants to sweep that under 
the rug.
    And with regard to my colleagues that have stated about the 
law and the need for more laws, I would remind everyone, the 
1968 Gun Control Act requires serial numbers. 18 U.S. Code 
Section 1922(k), 26 U.S. Code 5861, Paragraph (g) lays out 
requirements for what constitutes legal firearms. And it is 
illegal to possess firearms and have serial numbers removed, 
obliterated, or altered.
    Mr. Brandon, are you familiar with the Don't Lie For the 
Other Guy Program?
    Mr. Brandon. Yes, with the National Shooting Sports 
Foundation.
    Mr. Russell. Sure, and not only them, but, my goodness, 
what, for 17 years now, we have had that program. Is it or is 
it not a felony to make a straw purchase? And here we are 
talking about the need from your own mouth in acknowledgement 
to some of my colleagues' queries that we need to have a law to 
prevent this type of trafficking or straw purchases. Are you 
not aware of the Don't Lie For the Other Guy Program?
    Mr. Brandon. I am aware of it.
    Mr. Russell. Do you know what the penalties are for that?
    Mr. Brandon. Yeah, there is a 5-year felony, a 10-year 
felony.
    Mr. Russell. No, it is 10 years, sir. A 10-year felony for 
a Federal crime, and up to $250,000 fine. You can find that in 
U.S. Code 18 Section 924(c) and (e). I would be happy to show 
it to you.
    Here is the problem. We are talking around this issue. I 
have every belief that you are dedicated to your job, but right 
now we have three empty chairs, and we have you that does not 
even seem to know what the U.S. Code is.
    Mr. Brandon. Can I ----
    Mr. Russell. Now, I would like to believe that you do know 
those, but, Mr. Chairman, I would suggest that we have a 
regroup. The ranking member has not been allowed to have his 
witness here today. We have not even gotten to the tobacco 
issues. We need to have some follow on here. And, Mr. Horowitz, 
I am very grateful for the things that you have dug up. You 
have exposed some things. We are grateful for that. Mr. 
Brandon, I do believe you are dedicated, but I will tell you 
what, it is not looking too pretty here today.
    I yield back my time. Thank you, Mr. Chairman.
    Mr. Brandon. Could I get a minute?
    Chairman Chaffetz. Mr. Brandon, you are recognized, sir.
    Mr. Brandon. Mr. Russell ----
    Mr. Russell. I am out of time. That is why.
    Mr. Brandon. I am aware there are two statutes. One is a 5-
year and one is 10-year, so I did not want you to come away 
with that. But I would also like to comment on what you said 
about Federal firearms licensees.
    We have built, and that is one of the things under my 
charge, a better relationship and communication with the 
Federal firearms licensees because they are the front line of 
defense in receiving that information. And if you even go onto 
ATF's website, yesterday Twitter, one of the things under my 
leadership was the number of FFL burglaries that have been 
happening across the country, FFL robberies, things that were 
not tracked until 5 years ago.
    So, I just wanted to share that I have a passion for 
recognizing we regulate an industry, and good, honest, 
hardworking men and women dealing in a lawful commodity, and 
that are absolutely vital to our intelligence-led, risk-based 
way of doing business.
    And they should have followed up. When FFL called and gave 
those names, that should have been, you know, an alarm going 
off. So, thank you for letting me make that comment.
    Chairman Chaffetz. Thank you, of course. I will recognize 
the gentleman from Massachusetts, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. And I want to echo the 
gentleman from Oklahoma's request for follow-up on this because 
I think we really need to drill down on this.
    Mr. Brandon, last month the New York Times wrote a story 
raising some troubling questions about ATF's use of 
confidential informants in a tobacco operation that I guess was 
under way from 2011 to 2013.
    Mr. Chairman, I ask unanimous consent to enter this story 
by Matt Apuzzo, the New York Times, February 22nd. The title is 
``ATF Fills Secret Bank Account with Millions from Shadowy 
Cigarette Sales.''
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Lynch. So, the article reported that the ATF officials 
directed confidential informants to engage in sham transactions 
with a collective of tobacco farmers, and then used the off-
the-books proceeds in an undercover ATF investigation. This is 
churning. You are familiar with that, right?
    Mr. Brandon. Yes, sir.
    Mr. Lynch. Okay. And the way it works is you use those 
illicit funds to fund your own operation. Is that right?
    Mr. Brandon. Yeah, for continuing the operations.
    Mr. Lynch. Okay. While ATF did in this case possess special 
authority granted to it under the Bush Administration that 
allows the use of black market cash and proceeds in undercover 
operations called churning, the news report further alleged 
that this operation exceeded that authority. Do you believe 
that they exceeded the authority in this case?
    Mr. Brandon. Congressman, like I testified previously and 
included in my opening statement, that the U.S. government is a 
party to civil litigation, and I cannot comment on that. And 
also, the judge has it under seal.
    Mr. Lynch. Okay. How long is that seal going to be in 
place. Do you have any idea?
    Mr. Brandon. I believe it's until the 24th of this month.
    Mr. Lynch. Good. Good. We can have it back. Does the 
gentleman wish me to yield?
    Chairman Chaffetz. If you will yield, and we will give you 
plenty of extra time to make up for this. You commented ``that 
we are allowed to do'' as it relates to that. What have you 
done to address the Court and ask permission to comply with a 
congressional request for that material? Have you called the 
judge? Have you petitioned the Court?
    We go through this regularly. We are guided by the 
Constitution. We do not have these prohibitions. That 
information should be given to us, but we need you to approach 
the Court and tell them the dilemma that you are in in order to 
release that information.
    Mr. Brandon. Mr. Chairman, we have had conversations with 
DOJ, the U.S. attorneys who are over the civil litigation, and 
I am punting to them for that answer.
    Chairman Chaffetz. And we are snapping the ball to you 
saying the ball is in your hands and saying you need to 
approach the Court and make the request to give them permission 
to comply with a congressional directive.
    Mr. Brandon. Okay. I will take that back.
    Chairman Chaffetz. I will go back to Mr. ----
    Mr. Lynch. Thank you, reclaiming my time. Mr. Horowitz, are 
you familiar with this particular use of confidential 
informants for this cigarette scam which apparently generated 
millions of dollars and were put in these accounts?
    Mr. Horowitz. I am certainly familiar with these churning 
accounts from our 2012 audit, and the work we did there, and 
the substantial problems we found through that audit.
    Mr. Lynch. Okay. How did we vet these particular 
informants? I mean, under the Reno guidelines, there is certain 
conduct that would disqualify someone from being a confidential 
informant on behalf of the ATF. Were these folks vetted or were 
they in compliance with the Reno standards?
    Mr. Horowitz. I am not sure I know as I sit here today the 
specific individuals in the case under seal. But I will say 
more broadly we found in our audit that in 33 of the 35 
instances that we looked at back in 2013, that the critical 
information required the ATF policy to start the operation was 
not present. And we found a major churning investigation that 
had not ever been approved, and that the committee that was 
supposed to meet to review it never met.
    And we are close to issuing a report on ATF's handling of 
its confidential informants more broadly beyond this matter, 
and can certainly discuss with you when we get that report out 
in the next hopefully month or so those issues further.
    Mr. Lynch. Mr. Brandon, I know your previous answer was 
limited because of the seal. Is there anything you wish to 
dispute that has been put out here in terms of, the allegations 
are very, very serious.
    Mr. Brandon. Yes, sir, they are. The one thing I would like 
to assert is what the OIG, their thorough investigation of our 
churning cases, as you said, where we recognized there was a 
problem 7 years ago. In candor to you and the committee, the 
policy was lacking. The oversight was lacking. The leadership 
was poor. And we shut those down. There has not been a churning 
case since 2013.
    But I compliment the OIG and his team because they did an 
excellent report. We cooperated fully, and there are no longer 
any outstanding recommendations regarding churning from the OIG 
with ATF.
    Mr. Lynch. Okay. Is that authorization still out there, 
though? I know it came from the Bush Administration. Has 
anybody pulled that back, or is it just your own decision not 
to operate that way?
    Mr. Brandon. We put in tight policy. To answer your 
question, it is still out there. However, there have been no 
requests for churning investigations because it is a very tight 
policy and standard to open a churching investigation, and we 
have not done so since ----
    Mr. Lynch. Okay. Mr. Horowitz, from the accounting in terms 
of these accounts with the cash coming in and then going back 
out, it is sort of self-contained. And, you know, there is the 
opportunity for abuse, let us put it that way. Any 
recommendations that you have with regard to the way this is 
handled?
    Mr. Horowitz. Well, we certainly made several in connection 
with that review. And it is a report that we made sure the 
Department saw and made recommendations to the deputy AG's 
office because of the broader concern of whether any other 
Federal law enforcement agencies might have churning accounts 
and how they are doing things. But clearly, there needs to be 
far stricter controls than were in place back then. ATF has 
made changes in response, and that is what led us to close the 
recommendations as to ATF.
    Mr. Lynch. That is good news, but was anybody disciplined 
for what they described going on here in the New York Times 
article?
    Mr. Horowitz. I am limited in what I can say other than, as 
we indicated in the audit, our auditors referred matters for 
further investigation to our agents. And I need to leave it at 
that.
    Mr. Lynch. Okay. I know the chairman has a document 
request, and I believe it is due tomorrow. Mr. Brandon, are we 
prepared, are you prepared, to deliver those documents?
    Mr. Brandon. Like I have testified, Congressman, I have 
pulled people from the field. They have been working through 
the weekend, and we are diligently working to comply with the 
request.
    Mr. Lynch. Okay. I think I have exhausted my time. I yield 
back.
    Chairman Chaffetz. Will the gentleman yield?
    Mr. Lynch. Sure, I would. Sure.
    Chairman Chaffetz. I believe there is a great big asterisk, 
though, to the end of that sentence, right? You are not going 
to provide us the things that you believe are under seal by the 
Court, correct?
    Mr. Brandon. Mr. Chairman, I am going to have to comply 
with the U.S. Attorney's Office and DOJ dealing with those 
legal matters.
    Chairman Chaffetz. Okay.
    Mr. Lynch. Just sort of as a follow-up, Mr. Chairman.
    Chairman Chaffetz. Yeah.
    Mr. Lynch. I think if we get to the 24th and that seal goes 
away or there is greater cooperation on the part of the Court, 
maybe we reconvene this hearing with all the folks that are 
missing and go at this again.
    Chairman Chaffetz. Oh, we will no doubt have people back. 
But it has been the long-term practice prior to me that civil 
litigation is not a prohibition on Congress being able to do 
its job, get its documents that it receives.
    Mr. Lynch. I agree. I agree.
    Chairman Chaffetz. And so, yeah, we plan to issue a 
subpoena. The moment you provide that document production and 
it is shy of what we asked for, we will send you a subpoena. 
And so, we are planning on sending that to you on the 13th. I 
would rather not. I would rather have you give us all the 
documents we request, but we do not recognize that civil 
litigation given our constitutional duties. Anyway ----
    Mr. Cummings. Just one question.
    Chairman Chaffetz. Mm-hmm.
    Mr. Cummings. I just want to go back for a moment, and, Mr. 
Horowitz, maybe you can answer this. This seal was a Court 
seal, right? Who is sealing it? I assume it is the Court.
    Mr. Horowitz. As I sit here, that is my understanding, but 
I have not been involved in the litigation.
    Mr. Cummings. And if the Court seals it, then the Court has 
to unseal it, right?
    Mr. Horowitz. Correct.
    Mr. Cummings. I mean, civil or criminal. It does not 
matter.
    Mr. Horowitz. Right.
    Mr. Cummings. Okay.
    Mr. Horowitz. In fact, as the committee knows, we are 
dealing with that on the report that we issued on the Osorio/
Barba matter, which is certain matters were under seal, and we 
are asking the Department to go back to the Court and get it 
unsealed so we can redact it.
    Mr. Cummings. I got you. All right. Okay.
    Chairman Chaffetz. It is our belief that a congressional 
seal bars them from making it public, but to provide it to the 
United States Congress is not one of those prohibitions of a 
seal. A court seal, I should say. Not a congressional seal, but 
a court seal prohibits somebody from making it public. 
Providing the information we have requested to the United 
States Congress is not making it public. Therefore, we do not 
recognize that seal as something that prohibits Congress from 
doing its job. That is our position.
    And, Mr. Brandon, I know that puts you in a tough spot, but 
carry that message back if you will.
    Mr. Brandon. Yes, sir.
    Chairman Chaffetz. Thank you. Mr. Grothman from the State 
of Wisconsin is now recognized for 5 minutes.
    Mr. Grothman. Okay. Mr. Horowitz, thanks for being here. 
There are a lot of interesting things that you brought forth 
today. Can you give me other examples, or are you aware of any 
other examples in the last 5 years in which ATF by not 
communicating with DOA has led to, you would say, errors in 
investigations?
    Mr. Horowitz. As I sit here, I cannot think of anything off 
the top of my head. I do think we found in the storefronts 
report that we did, and I have to just go back and refresh 
myself, concerns about its coordination in some of those 
storefronts that were several years with State and Federal 
prosecutors, and the coordination between them on who would 
take which cases and whether they would, in fact, take cases.
    Mr. Grothman. Okay. We will flip to Mr. Brandon. What are 
you doing to make sure that your agents coordinate with U.S. 
attorneys as quickly as possible compared to the past?
    Mr. Brandon. Congressman, as I testified, we established 
what we call Frontline, an intelligence-led, risk-based 
business model in beginning of 2012. And in that, every special 
agent in charge of a division has to do an annual domain 
assessment. And that came from me that they had to share that 
with the U.S. attorney and his first assistant, the criminal 
chief, to make sure that ATF is in step with the U.S. attorney. 
And it also makes us more efficient and effective on our 
resources to make sure that what we are investigating are the 
most violent people, and that there will be a prosecution from 
it.
    Mr. Grothman. Do you feel the U.S. attorneys' willingness 
to prosecute a straw purchasing case is influenced by how you 
investigate a case?
    Mr. Brandon. Sure. You know, I mean, prosecutors want good 
cases. I do not blame them, and that is our job to deliver 
them. But I also know that across the country, U.S. attorneys 
have different challenges on what they are wanting to 
investigate with their resources. So, it is not the same all 
across the board.
    Mr. Grothman. Do you ever change your investigative methods 
because you think the case is unlikely to lead to prosecution?
    Mr. Brandon. To be candid, there have been some divisions 
where if it did not look the U.S. attorney would take it, that 
we would go to the State attorney general's office for 
prosecution.
    Mr. Grothman. And do you feel you have the responsibility 
to disrupt straw purchasing or firearms trafficking, even if 
you think you are unable to obtain a prosecution or conviction?
    Mr. Brandon. Yes, sir. And as I testified, I really believe 
the interdiction and deterrence credit that we give agents for 
their production has helped knock down the number of, say, 
straw purchases where they get scared off, and let them know 
that they have come under ATF attention.
    So, I keep using the expression, but be on the left side of 
boom. That was not in the culture. It was, why waste our time 
on this if we are not going to get a prosecution. And we put an 
emphasis on public safety with interdiction and deterrence from 
firearms getting in the wrong hands.
    Mr. Grothman. Okay, thank you.
    Chairman Chaffetz. Sorry.
    Mr. Cummings. Would the gentleman yield? Thank you. I want 
to go back to something that Mr. Lynch was talking about, Mr. 
Horowitz. To get to a churning situation, I guess that really 
calls for some folks to be cooperating, right? I mean, in other 
words, you got to have several people working together for that 
to happen, right?
    Mr. Horowitz. That is my understanding from what we have 
seen.
    Mr. Cummings. And so, you know, when I read the story, and 
I know we cannot get into that too much here, I was kind of 
surprised to even see that, particularly after all the Fast and 
Furious stuff that we have been through. It just seemed to be a 
bit much. I was shocked, to be frank with you. Were you?
    Mr. Horowitz. I have to say I was not primarily because --
--
    Mr. Cummings. Because you had more information.
    Mr. Horowitz. Because our 2013 audit ----
    Mr. Cummings. Yeah.
    Mr. Horowitz.--identified many similar situations, frankly, 
of a lack of controls. In that circumstance, we not only found 
a problem with the controls over the bank accounts and the 
controls over the CIs, the informants, but the controls over 
the cigarettes themselves. ATF could not reconcile all the 
cigarettes with a substantial value to them.
    So, in that report we saw a series of failures, so, 
frankly, I was not particularly surprised.
    Mr. Cummings. So, you think this is just people in the 
Agency that just say, you know, we will use any method 
necessary to get the job done, or are they people that just say 
we do not care about, you know, how this is going to appear? In 
other words, I am concerned that, you know, you can let any 
agency or any organization get lulled into a culture of I do it 
the way I want to do it, and that is why I was asking you about 
does it take several people. How do we even get there?
    Mr. Horowitz. This was ----
    Mr. Cummings. Because I do not want to see it happening 
again. We should not be opening up the New York Times reading 
about this kind of stuff. Go ahead.
    Mr. Horowitz. I was just going to say, the churning issues 
that we identified, the issues in Fast and Furious we 
identified, the ATF storefronts report, some of the things we 
have been before the committee and talked about on the DEA 
side, those were not, generally speaking, as you just 
indicated, Congressman, one person running amuck. They were 
multiple people without adequate controls, leadership, and 
oversight being able to do what they thought, in most of those 
instances, not all, were advancing law enforcement interests 
when, in fact, they were not.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you. We will now recognize Mr. 
DeSaulnier of California.
    Mr. DeSaulnier. Thank you, Mr. Chairman. And along the 
lines of what the ranking member just mentioned, we have heard 
in this committee when you have come and testified before, Mr. 
Horowitz, just on lessons learned and doing reasoned 
nonpartisan interventions. So, to Mr. Brandon, does ATF 
maintain a database of Federal law enforcement weapons that 
have been lost or stolen?
    Mr. Brandon. No, we do not.
    Mr. DeSaulnier. Right. So, in the San Francisco Bay area 
where I am from, there has been a lot of media attention, and 
the San Jose Mercury News has done an extensive series of 
stories--you may have read it--about lost and stolen weapons by 
both State, local, and Federal officers.
    Two people have lost their lives that I am aware of because 
of lost and stolen Federal weapons, one by an agent from the 
Bureau of Land Management that led to the tragic death of Kate 
Steinle, a former constituent of mine, that has led to the 
larger discussion both by the President and members of Congress 
about immigration status. But the fact remains that that gun 
that was used in that murder and in another murder in Oakland 
were Federal law enforcement officers who had weapons stolen.
    So, I have a bill, and to my friend from Oklahoma, I do not 
need to have a bill passed. I have also asked the 
Administration, the previous Administration, could you at 
least, led by ATF, create a policy that was germane to all 
Federal law enforcement both on proper storage of weapons so we 
would not have the situation that happened in San Francisco 
that happens a lot in San Francisco unfortunately where if 
there is anything in the car, thieves will break a window and 
grab and snatch, snatch and grab anything in there that led to 
these two deaths.
    So, it just seems to me common sense that you would lead an 
effort to make sure that there was the best policy possible, 
whether it requires a statute or not, to make sure that we have 
learned the lesson in this instance and others just in terms of 
an inventory control and accountability issue, that you would 
make sure that these kind of things were at least minimized. 
And the fact that you do not even create a database to follow 
these things for Federal law enforcement seems to me to be 
negligence in the extreme, and personally, having seen people, 
constituents, people suffer the consequences.
    So, my question is, the State of California responded to 
this by passing a statute that required Federal and State 
agencies, because they have been guilty of the same thing, and 
sometimes quite tragically, I will add, to law enforcement 
officers. I have another constituent who is a police chief, and 
his weapons were stolen out of his car in a driveway in a very 
affluent community and used to commit a crime, and he was 
horrified and quite guilty about it.
    So, I have heard sort of the culture question by the 
ranking member, friends of mine in law enforcement saying you 
should not be imposing these, we care about public safety, let 
us take care of it, but that is not enough. I really think that 
it is incumbent on you, and the IG has pointed this out, to 
develop better inventory control, and better accountability, 
and better consequences for Federal law enforcement officers, 
and better preventative practices.
    So, my question is, as I understand the law in California, 
Federal agents will have to comply with that. And if you are 
aware of how you are helping to comply with that effort, and 
why we do not do it on a national level, and I do not think it 
needs statute. I think you could do it administratively, and it 
would help a great deal. So, could you respond to those 
observations?
    Mr. Brandon. Yes, Congressman. You described tragedies, you 
know, and I remember reading about it in the paper.
    As far as ATF and I know the other agencies as well, we 
account for our firearms inventory, and that is an annual thing 
as far as having to account for every firearm. I will share my 
sensitivity to what you are saying is that when I was in the 
deputy director position, I increased the penalty if an agent 
had a firearm stolen out of their care a mandatory 5 days off 
without compensation, and it could not be reduced. And I was 
sending a message culturally because of the sensitivity, which 
has become prominent amongst people stealing guns out of cars.
    I have gone to St. Petersburg. The chief had billboards up 
about please lock your car up, secure your firearm. I was in 
Memphis. The chief was saying the same thing. So, I support 
that.
    Whether or not ATF would be the custodian of everybody's 
firearms, I believe that it is being done at each law 
enforcement bureau component, and that we do an annual 
inventory, and that any firearm that is stolen with ATF, that 
it is investigated by our Internal Affairs. The OIG always has 
a chance of reviewing the files, and then it will go through 
our process for discipline.
    Mr. DeSaulnier. Mr. Brandon, I hope that all of those 
changes actually result in a positive thing that we both want, 
but it is not working so far. We just had another incident with 
an FBI agent out of the Concord, California Bureau office, 
which is in my hometown, where multiple weapons were taken. So, 
it is not working.
    So, my question is, why given that law enforcement has said 
over and over again we care about these things, we are doing 
things, as you had pointed out to, but it is not working. So, 
understood that there is going to be some margin of error and 
there are going to be instances, but we are not doing enough.
    So, my admonition and request for you and of the committee 
is we need to do things and do it across the board to all 
Federal agencies as the State of California is doing for State 
and local officers, and make sure, particularly on the front on 
storage of the weapons, and when they are not in use. If they 
are not on your person, the new law says they have got to be 
locked in your trunk and have a gun lock on them, which seems 
to me to be the right thing to do.
    So, I would just ask you and the committee that we continue 
to pursue this in the prevention area in this larger thing so 
we do not have these tragic situations, knowing that they may 
happen on occasion, but they are happening far too often as it 
is right now.
    Mr. Brandon. No. Thank you, Congressman, and ATF's policy 
is, what you said, is about the secure storage of firearms in a 
vehicle. It has to be not just in a trunk, but within a 
container that is within that trunk that is designed for 
firearms storage.
    Mr. DeSaulnier. So, my only observation is that is great, 
but it is not working across all Federal agencies. And to the 
degree that you have the ability to enforce that and bring up 
the best standards, I think we should be pursuing that. Thank 
you.
    Mr. Brandon. I am sorry ----
    Chairman Chaffetz. No, go ahead.
    Mr. Brandon. Congressman, we have a quarterly meeting at 
DOJ with FBI, DEA, the Marshals, and the FBI, the four 
components. I will bring it up at the meeting as a topic of 
firearms storage.
    Mr. DeSaulnier. I would appreciate that.
    Mr. Brandon. Thank you.
    Chairman Chaffetz. Thank you, and that is a good point. The 
committee is happy to follow up, and perhaps we could get an 
inventory or some sort of indication as to what they are doing 
or not doing in that. So, let us work with you on that as well. 
That is a good point.
    I will now recognize myself. Mr. Horowitz, you said earlier 
that your office found no criminal conduct from anyone involved 
in Fast and Furious. I want to ask about former ATF Phoenix 
Field Division Assistant Special Agent-in-Charge George 
Gillett, who was heavily involved in running Fast and Furious. 
He had personally purchased a firearm. What happened, do you 
recall, to that firearm?
    Mr. Horowitz. I do, and it was transferred by him to a non-
U.S. national.
    Chairman Chaffetz. And so, he sold it to a non-U.S. 
national, and what happened with that gun? Where did they find 
it?
    Mr. Horowitz. If I recall correctly, it was a scene of a 
crime, but I would have to go back and just make sure I 
remember.
    Chairman Chaffetz. Yeah, that is the way we recall it as 
well. Mr. Brandon, when you fill out Form 4473, are you allowed 
to use your work address or are you supposed to use your home 
address?
    Mr. Brandon. You are supposed to use the residence you live 
at.
    Chairman Chaffetz. If you put something other than your 
home address, can you prosecute those crimes? Is that a crime?
    Mr. Brandon. If you intentionally and knowingly put 
something down false on a form, yes, it is.
    Chairman Chaffetz. So, the form says you are supposed to 
put your home address, correct?
    Mr. Brandon. I believe so. As I recall, yes.
    Chairman Chaffetz. Yeah. So, something other than your home 
address would be inaccurate, correct?
    Mr. Brandon. Correct. I mean, I bought a gun last summer. I 
put down my apartment.
    Chairman Chaffetz. So, did the Inspector General's Office 
make any recommendation to the Department of Justice to 
consider prosecuting him for--this is Mr. Gillett--for lying 
about his address on Form 4473? Mr. Horowitz?
    Mr. Horowitz. I do not believe we did.
    Chairman Chaffetz. And why not?
    Mr. Horowitz. Because what we have been told or were told 
is that for law enforcement agents at the Department, many of 
them do not use their home address for security purposes, but 
instead use a P.O. Box, or UPS Box, or some other location, and 
that that was not sufficient evidence of intent to warrant a 
criminal prosecution.
    Chairman Chaffetz. Even though he sold it to a non-U.S. 
national and it ended up at a crime, and he used an address 
that is different on the form. You just decided that, nah, we 
will not prosecute that. What is hard for the American people 
to understand is why that waiver? Are these forms publicly 
available? I mean, can you just go look this up?
    Mr. Horowitz. I believe you can. I think if you go on the 
internet and look, it is on ATF's website.
    Chairman Chaffetz. But, I mean, can you look up, oh, let us 
go find and ATF agent, and then we look at his form and see if 
he purchased anything, and, oh, there is his address? I mean, 
what are we trying to protect him from?
    Mr. Horowitz. I would defer to ----
    Chairman Chaffetz. Mr. Brandon, is that common practice? Is 
that what ATF agents are doing in putting a work address on 
there?
    Mr. Brandon. Not to my knowledge. I was surprised at George 
Gillett's response. In candor to you, Mr. Chairman, I am glad 
he is off ATF. He was not one of our best. And people that were 
doing undercover work, ATF would provide undercover 
identification, and that would be the permissible type.
    Chairman Chaffetz. Right.
    Mr. Brandon. But I think, if I remember correctly, he was 
using a drop box at a mail place, a P.O. Box, and I was 
surprised. And it is not common that I know of to ATF.
    Chairman Chaffetz. Let me switch gears. Mr. Brandon, you 
said that there was a person, the group supervisor who was 
supposed to have some responsibility here--we are going back to 
the Zapata case--I think the phrase you used ``asleep at the 
switch.'' How long did it take for you to all figure out--and I 
am not talking about you personally, but the organization--how 
long did it take ATF to figure out that there was somebody 
asleep at the switch?
    And the second part of that is, what happened to him? Was 
he fired? Was he disciplined? Did you give him bonuses? What 
happened to this person?
    Mr. Brandon. The person retired from ATF.
    Chairman Chaffetz. As a result of this? Right after it? I 
mean, help me with the timespan. 6 years have passed, so help 
me with the timespan.
    Mr. Brandon. Well, I know the employee, from reading the 
report, that the OIG interviewed him. He retired before the 
report came out, and his reputation was not that of a dynamic 
leader that was engaged.
    Chairman Chaffetz. Mr. Horowitz, can you weigh in on this?
    Mr. Horowitz. My understanding is he retired in June of 
2012, so even before we got the referral in September 2012.
    Chairman Chaffetz. Okay.
    Mr. Horowitz. And before we began our review.
    Chairman Chaffetz. Mr. Horowitz, we have talked in general 
about access issues to a whole host of things. Are you having 
access issues at the ATF?
    Mr. Horowitz. We are not, and I want to be clear also. The 
delay had nothing to do with any access issues with ATF. We got 
what we needed. That was not an issue.
    Chairman Chaffetz. And outside the Zapata case, on a 
broader sense, are there access issues that you care to 
highlight here at this hearing?
    Mr. Horowitz. Currently we do not. ATF has been very good 
in the last several years about getting us, even as we were 
having fights with DEA and FBI. Our access issues with ATF were 
actually in connection with the Fast and Furious matter.
    Chairman Chaffetz. Well, let us note that 2011, we got some 
good news, so congratulations, Mr. Brandon. We thank you for 
that.
    Mr. Brandon. Well, thank you.
    Chairman Chaffetz. My time has expired.
    Mr. Brandon. Mr. Chairman, can I ----
    Chairman Chaffetz. Yes.
    Mr. Brandon.--because I did want anybody to think I was 
lying. I confused it. There was another employee that retired 
at the end of 2016 that the OIG was critical of in documenting 
his surveillance and interview of an FFL. So, that is what I 
was referring to my head just for the clarification. I did not 
want to be inconsistent.
    Chairman Chaffetz. Okay. No, I appreciate it. No, thank 
you. Let us go back to Mr. Lynch of Massachusetts for 5 
minutes.
    Mr. Lynch. Thank you, Mr. Chairman. Mr. Horowitz, I want to 
go back to the cigarette smuggling case. Mr. Brandon, you had 
ATF agents working with at least a couple of informants in that 
case. And it says here in the New York Times article that they 
were funneling tens of millions of dollars, and then apparently 
they are using the black market cash to pay the informants. Is 
that a usual practice?
    Mr. Brandon. Again, sir, if I can comment not particularly 
to this investigation. It is under seal.
    Mr. Lynch. Okay.
    Mr. Brandon. But in churning in general and how the OIG's 
report was spot on, and that oversight was deficient, policy 
was deficient, it was a hot mess. And that is why we shut it 
down, all of them, in 2013. There has not been another one. And 
I actually, you know, welcome when everything that can come out 
on this case that the government is a party of.
    Mr. Lynch. All right. Let me thank you for that. Mr. 
Horowitz, so I am trying to follow your investigation. You did 
a very good report. I think it was a 2013 report. You went back 
from, I think, February of 2006 ----
    Mr. Horowitz. Right.
    Mr. Lynch.--to about June of 2011, right?
    Mr. Horowitz. Yes.
    Mr. Lynch. So, we got that block of time.
    Mr. Horowitz. Right.
    Mr. Lynch. You had some reports there where informants were 
being paid, some of them a million dollars, a million dollars a 
year. To pay an informant, who I think at that point was 
working with the DEA, if I am not mistaken.
    Okay. So, now we have another report from the New York 
Times that goes to January and February of 2011, so it is 
within the scope of your study, Mr. Horowitz, your report. So, 
there is some overlap here that this churning is going on.
    So, is your investigation, did you cover this? Did you 
cover the accounts? I am trying to figure out is the money 
being reported properly? Who did it go to? How much money were 
these folks getting?
    Mr. Horowitz. Again, I do not know all the specifics of the 
matter and what is under seal.
    Mr. Lynch. But did you investigate that, though?
    Mr. Horowitz. But I will say that given what my auditors 
looked at and the accounts they looked at ----
    Mr. Lynch. Okay.
    Mr. Horowitz.--I believe we looked at the breadth of the 
undercover churning accounts that ATF was using, and that our 
audit report covered those accounts in full, and that the 
problems we identified covered that.
    Now, when we finished in June 2011 in our field work, one 
of the reasons it took some time to issue the report was, 
frankly, because as we were doing our audit work beginning in 
2011, ATF was making many of the changes that Acting Director 
Brandon outlined. And so, what we ended up doing was 
continually updating our audit report, which caused us to want 
to make sure we were picking up some of the changes they made. 
And they asked us actually to look at some of the changes they 
made.
    Mr. Lynch. Okay.
    Mr. Horowitz. So, I think ----
    Mr. Lynch. I was just trying to get the timeline down to 
make sure that you were looking at this case, and it appears 
that you did. Part of your investigation at least captured this 
before the practices ended.
    Mr. Horowitz. I will say this. I do not, again, know all 
the specifics of what is under seal, but if it fell into a 
period through June 2011, I think it is safe to say that our 
auditors looked at the scope of their churning accounts through 
June 2011. And my guess is the acting director, given our back 
and forth ----
    Mr. Lynch. Okay.
    Mr. Horowitz.--could probably speak to that as well as to 
whether we looked at all of their accounts.
    Mr. Lynch. All right. Well, you know what we will do is we 
will wait until the 24th and have another bite at that just to 
make sure we are right. All right.
    I yield back, Mr. Chairman. Thank you.
    Chairman Chaffetz. Thank you. I will now recognize the 
ranking member, Mr. Cummings, for 5 minutes.
    Mr. Cummings. It would be legislative malpractice, Mr. 
Brandon, if I did not ask you these questions.
    In my district, in the inner city of Baltimore, you have 
situations where young men can get a gun just as fast as they 
can get a cigarette, and it is interesting that there has been 
a proliferation of sales of guns. And I am just wondering, how 
does that make your job harder, and how do you all deal with 
that? And you do not have to sugar coat it with me. I believe 
that the ATF has been treated like a stepchild, and I think 
there are some that, if they had their way, would get rid of 
you guys immediately.
    One of the reasons why Mr. Lynch's questions are so 
significant, and one of the reasons why Fast and Furious was 
significant, is because it then gives people who do not like 
you and your organization justification to treat your 
organization the way it is treated. And anybody who knows 
anything about the ATF can sit here and be dishonest, but I 
believe that with all my heart because I attend the funerals of 
young, particularly, black men who die tragic deaths, and even 
my own nephew, brains blown away on a wall being robbed. That 
was in Norfolk 5 years ago. They still have not found the 
person who did it, but I know the ATF got involved.
    But this is my question. Yesterday I had a meeting with 
President Trump, you know, and I told him, I said, Mr. 
President, do me a favor. When you talk about the black 
community, do not just talk about, make it sound as if we are 
all in some bunker somewhere suffering. Do not judge us by a 
weakest link.
    But he keeps saying that I am trying to figure out. He 
keeps saying that he is going to send in the feds--I do not who 
he is talking about, I guess troops, probably ATF--to help with 
places Baltimore, and he loves to talk about Baltimore. He 
loves to talk about Chicago. And we know we have limited 
resources. One of our members told you a little bit earlier 
that you just got to do more with less pretty much.
    So, if the President came to you and said, Brandon, you 
know, how can we use our resources best to help places like 
Baltimore and Chicago, what would you say, because I am just 
wondering how he would do that. I know about the task force, 
you know, because we have got that in Baltimore. That to me is 
important. But do you, I mean, just send people in and say ATF, 
you know, look at this situation, do whatever you want?
    I mean, what would your recommendation be, because he is 
probably going to come to you if he has not already, or 
somebody is going to come to you.
    Mr. Brandon. Congressman, I appreciate the question.
    Mr. Cummings. And I am not trying to put you on the spot. I 
am really curious because I want us to be effective and 
efficient in whatever we do, and I know you do, too.
    Mr. Brandon. I would love the opportunity. Like I said, I 
think everybody wants to be tight with the taxpayers' money, 
and I am one of those persons. But one of the things from the 
major cities chiefs that they all said is we what we would do 
is go in with enhanced enforcement initiatives for 90, 120 
days, and you are not selling sustainability.
    There is a program called the National Integrated 
Ballistics Information Network, NIBIN. It has been a game 
changer, and it is where the casings at shootings, and perhaps, 
I do not know if this was done with your nephew in Norfolk. But 
that is entered into what they call, it is a fancy microscope 
that puts a digital signature on the casing, much like a 
fingerprint.
    And when you have a comprehensive collection plan with the 
PDs and it goes through NIBIN, it will link up shootings in 
different States and to go after people, and I will give you an 
example if I had the chance to talk to President Trump. We have 
done more with less, but this is good for the American public. 
It is decimal dust. $50 million to $100 million for this 
technology, not for another ATF employee.
    The example was when I was at San Diego, the International 
Association of Chiefs of Police, the deputy chief made a point, 
and I was speaking before the Police Executive Research Forum. 
He said, our PD got shot at. Within 12 hours, we collected 
that, had that scanned in, and it went down to our National 
NIBIN Correlation and Training Center where we as ATF said how 
can we serve the States and locals better.
    Within 12 hours, we sent the response back saying that 
shooting at that PD is matched up with 3 other shootings. It 
went to our Crime Gun Intelligence Center. The misery of Fast 
and Furious, and I do not defend it, was us establishing the 
Crime Gun Intelligence Center where you collect, analyze, and 
synthesize, and disseminate information rapidly with our law 
enforcement partners. They had 3 or 4 guys locked up within 24 
hours.
    So, if I had the President's ear, that is what I would say. 
NIBIN, it is a game changer for investigative leads, what I 
refer to as trigger pullers, and then to go after the 
traffickers that are supplying them with firearms. And I think 
it is something everybody can wrap their arms around because, 
as you well know, sir, and I spent a lot of my career in 
Detroit and the victims, it is painful to watch people being 
shot, and the misery it does on the families. And then there 
are shootings even at funerals, as you know.
    Mr. Cummings. Yes, oh, I do.
    Mr. Brandon. Which I have done surveillances on those and 
so forth. So, to answer your question, I believe even if I was 
a taxpayer outside of ATF, this is something worthy of 
attention to address the gun violence across America. And also 
to reiterate the point, I think we have made a lot of progress 
in working with our local PDs on federal firearms licensee 
burglaries.
    Last year, there were over 7,500 guns stolen during FFL 
burglaries. And so, we are trying to say, hey, prevent that. 
Working with the National Shooting Sports Foundation and 
others, and the SHOT Show, and so forth, to educate them for 
security. And, again, it is different than an armed robbery 
where we could hit them federally with 924(c), you know, or the 
Hobbs Act and so forth like that. An FFL burglary is a 
different animal.
    But that is what I would say, and it is just the right 
thing.
    Mr. Cummings. Thank you very much.
    Chairman Chaffetz. These machines, they cost how much?
    Mr. Brandon. Mr. Chairman, I have to go back, but I think 
it maybe $129,000. And if I may comment where, again, to your 
point of the cost of this, which is just like fire departments 
have done across the country and tactical teams during 
regionalization, that not every PD needs a machine, you know. 
You can have where they have memorandums of agreement, and that 
I know of other PDs that say, hey, come down on Tuesdays, enter 
all your casings. So, it is an expensive item, but it saves 
lives.
    Chairman Chaffetz. We just want to work with you. I would 
love to learn more about it, and if you could just educate us 
on that. I would love to help you get more of them.
    Mr. Brandon. Mr. Chairman, I really appreciate it. I would 
love to.
    Chairman Chaffetz. Yeah. No, that would be great. You said 
something that really caught my ear, and it is something the 
committee has been looking at it, and we would really 
appreciate your help. I was encouraged when you said that the 
statistics that you have at your disposal, you said ``We do not 
want to waste our time on cases that will not be prosecuted.''
    That is true with every law enforcement agency I have ever 
encountered, right? There is nothing more frustrating than the 
men and women who go out there, do the hard work, they put a 
case together, and then a prosecutor says, eh, it is not as 
sexy, it is not as jury friendly as we hoped it would be, and 
so, hey, you know, we are not going to do anything here.
    In order for us to get our arms wrapped around that, you 
are as swift as you can providing us sort of, and I think a 3-
year window, unless somebody else wants to weigh in here. I do 
not want to go back 15 years. But if you can look back over the 
past 3 years and give us some statistics here is how many straw 
purchasing cases we had.
    I have got push the Department of Justice to find out what 
they are actually prosecuting, but my guess is most every one 
of your agents already knows, if I give them this paperwork, 
they are not going to prosecute it, so why bother, right?
    So, I want to know what those cases are, but as 
importantly, I want to know what you have given them. And the 
example and the parallel that I am giving is the TSA. TSA, I 
cannot say enough about their Instagram account. You want to go 
see an amazing Instagram account, go to the TSA one.
    Every day they are putting up pictures of guns and other 
types of weapons, and knives, and things that people are trying 
to bring on airplanes. And then when you go work with the local 
law enforcement, when you work with the prosecutors, it is 
crickets. They almost never prosecute anybody. And my guess is 
we are having the exact phenomenon throughout the country with 
these gun violations.
    I need exposure to that, and that is where your help in 
providing us the statistics, sooner rather than later. I do not 
know what timeframe to put on that, but you did say that they 
were fairly easy to put together. Can you get back to us as to 
when is a reasonable time and to provide us those statistics?
    Mr. Brandon. Mr. Chairman, I would be happy to.
    Chairman Chaffetz. That would be really helpful.
    Chairman Chaffetz. Please do familiarize yourself with that 
churning case as highlighted in the New York Times. We will be 
having a hearing about this. I need to know that you are 
personally involved and engaged on this, and that you are 
willing to cooperate with us on this investigation. Do I have 
your cooperation on that?
    Mr. Brandon. Mr. Chairman, you absolutely do. And whatever 
I am legally allowed to do without getting in a jam with a 
Federal judge, I am all yours ----
    Chairman Chaffetz. Again, our ----
    Mr. Brandon.--to testify.
    Chairman Chaffetz. I know I have said it a couple of times, 
but your providing Congress the information requested is not 
making that information public. And not only do we not 
recognize the seal, so to speak, but we do not believe it binds 
you, but I know there are lots of attorneys that are going to 
give you a lot of advice.
    But we do need that information, and, at the very least, we 
also need you to try to pursue that in the Court if you think 
you have to. Again, we do not think you have to, but if you 
think you have to, I want to make sure you are at least asking 
them.
    Mr. Cummings. Mr. Chairman?
    Chairman Chaffetz. Yes?
    Mr. Cummings. Let me say this to you, Mr. Brandon. You 
know, so often we have these hearings, and things do not get 
tied up properly, and I am going to tell you what I told the 
chairman a few minutes ago about you. I said I believe this guy 
is a good guy, and that he may not have fully understood the 
invitation because I do feel your sincerity, I really do. I 
have interviewed a lot of witnesses in my career as a lawyer.
    And I just want to thank you for, you know, your candor, I 
mean. But I got to tell you something about this guy. He can be 
kind of nice, but once he thinks you understand him, you think 
you saw some fury today? It gets worse.
    [Laughter.]
    Mr. Cummings. So, all I am saying is that you are now on 
notice that an invitation, we expect you to make sure that folk 
get here as best you can, okay? You got me?
    Mr. Brandon. Mr. Chairman, my former boss said the 
education of Tom Brandon continues.
    [Laughter.]
    Mr. Brandon. And this was an education today. Again, I 
meant no disrespect. I was trying to do the right thing, but, 
hey, obviously it did not go that well. But I appreciate your 
comments about me being candid and open, and that is my MO.
    Mr. Cummings. And we also thank you for your service 
because ----
    Mr. Brandon. I appreciate that.
    Mr. Cummings.--obviously you have been through a lot. You 
have seen a lot.
    Mr. Brandon. Fast and Furious changed my life.
    Mr. Cummings. Yeah.
    Mr. Brandon. And I stayed in the game. I stayed in the 
fight because I love the men and women of ATF. They do a vital, 
important mission of protecting the public and serving our 
Nation. And, you know, the ATF of 2017 is not the ATF of 2010 
when much of this stuff happened, and I just wanted to thank 
you for allowing me to say that.
    Mr. Cummings. Thank you very much.
    Chairman Chaffetz. And I want to thank you for your service 
and your candor. You are earning our respect, and the proof 
will be in the pudding as we move forward. But I do believe 
you, too, and I think we better understand each other, and 
hopefully DOJ understands us as well. But I think we made the 
message clear, and I appreciate your working with us.
    And, again, back to your service in the U.S. Marines and 
moving forward, you have done a lot for this Nation and put 
your life on the line on a regular basis, which is more than, 
you know, most people do. And we admire, and I cannot say 
enough about the men and women who also serve with you in doing 
that because, you know, we are up here wearing ties and real 
clertical. And yet you see the 16-hour days these people put in 
with their lives on their line dealing with the worst scum you 
can possibly imagine.
    And I want you to know we all recognize that, and grateful 
that people will step up and do that, not only at ATF, but 
other departments and agencies as well, everybody from Border 
Patrol to working in the prisons. I mean, it is tough. It is 
tough, and we do not praise people enough for the good work and 
the sacrifices they make and their families make, their 
spouses, their kids, their friends, their family, their 
parents. It is tough, and they do amazing work, and we never 
compensate them enough. But I do hope from time to time, we 
stop, and pause, and recognize them.
    So, again, I think it is one of the beauties of this Nation 
is that we have these kind of really candid discussions, but we 
have also got a duty to do on both sides of these tables here. 
And so, we appreciate your working with us and helping us to 
ultimately get to the truth and make things better.
    And so, to Mr. Horowitz, again, the number of people that 
work with you at the IG's office, know how much we appreciate 
them.
    I thank all the members here today. It is an important 
topic and something we will continue to follow up on.
    The committee stands adjourned.
    [Whereupon, at 12:32 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
